           AUDIT OF THE

DRUG ENFORCEMENT ADMINISTRATION’S

 MOBILE ENFORCEMENT TEAM PROGRAM 





        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 



            Audit Report 11-08 

             December 2010

 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S 

        MOBILE ENFORCEMENT TEAM PROGRAM


                              EXECUTIVE SUMMARY

       The Drug Enforcement Administration (DEA) established its Mobile
Enforcement Team (MET) program in 1995 to combat violent drug-related
crime. METs initially were intended to help local law enforcement agencies,
particularly in rural areas, confront drug trafficking problems that were
beyond their immediate capabilities. For example, local law enforcement
agencies can request MET assistance to help conduct drug investigations
they cannot handle on their own because of budget limitations or because
their own officers are locally known and cannot conduct undercover
operations.

      The DEA’s policy for approving MET deployments states that the
program’s goals are to reduce drug related violence and disrupt or dismantle
the rapidly increasing number of methamphetamine drug traffickers and
laboratories. The DEA’s policy states that by targeting these organizations,
the DEA seeks through its MET program to remove offenders from
communities’ streets and have a significant impact on drug-related violence
and drug availability.

      When a MET operation is approved by DEA headquarters, a DEA MET is
deployed to the target area to provide law enforcement assistance, which
can include various investigative operations. The most common type of
assistance provided by a MET is using informants and making undercover
purchases of drugs. A MET usually consists of 8 to 10 DEA Special Agents
and a supervisor, and it typically lasts 6 to 7 months.

       The MET program operated in all 21 domestic DEA field divisions until
June 30, 2007, when the administration discontinued the program because
of budgetary constraints. Although the President's appropriation request for
fiscal year (FY) 2008 did not include funds for the MET program, Congress
provided $20.6 million for the MET program to target methamphetamine
trafficking and operations.1 In May 2008, the DEA set up METs in 10 DEA



      1
          See the explanatory statements to the FY 2008 Consolidated Appropriations Act,
Division B–Commerce, Justice, Science, and Related Agencies and the House Report
accompanying the FY 2008 Commerce, Justice, Science, and Related Agencies
Appropriations Bill.
                                             i
field divisions. In FY 2009, Congress appropriated an additional $10 million
for the MET program, and the DEA added METs to four more field divisions.2

OIG Audit Approach

      The objectives of this audit were to examine the design and
implementation of the MET program and to evaluate the success of MET
enforcement operations.

      We performed our audit work at DEA Headquarters in Arlington,
Virginia; the Atlanta Division Office; and the St. Louis Division Office. At
these locations, we interviewed personnel including Section Chiefs, Staff
Coordinators, Special Agents in Charge, Assistant Special Agents in Charge,
and Group Supervisors. We also examined MET deployment requests,
assessments, and budget documents, as well as arrest, seizure, and MET
deployment impact information.

      We reviewed all MET deployments from May 2008 through January
2010. We surveyed all DEA divisions with a MET to obtain field
management’s opinions on the focus of the MET program and information on
how they selected MET deployment locations. We also obtained and
reviewed additional deployment request letters received and data on results
such as arrest and seizure information. Appendix I contains a more detailed
description of our audit objectives, scope, and methodology.

Results in Brief

      As described in this report, DEA MET program operations have resulted
in arrests, convictions, and seizures of drugs. Since restarting the program
in FY 2008, the DEA has focused the majority of its MET deployments in
urban communities to address violent gangs primarily trafficking cocaine and
crack cocaine.3

      The DEA did not request MET funding for FY 2008, but Congress
provided $20.6 million and indicated that the DEA should use METs to focus
on combating methamphetamine and other dangerous drugs. The DEA
informed Congress through its FY 2009 budget submission that it would use
the FY 2008 funds to continue its efforts against gangs and violence.

      2
          See Explanatory statements to the FY 2009 Consolidated Omnibus Appropriations
Act, Division B, Commerce, Justice, Science, and Related Agencies.
      3
       MET deployments initiated to focus on other drugs also may result in some
methamphetamine seizures and related arrests.

                                           ii
       In FYs 2009 and 2010, the DEA’s budget requests stated that METs
would focus on gangs and violence. However, conference report language
and explanatory statements issued by Congress for both of those years
stated that METs should “include a focus on methamphetamine” and did not
refer to the focus on gangs and violence.

       At a July 2009 congressional committee hearing a DEA Assistant
Administrator testified that the DEA established METs at four DEA divisions
in FY 2009 to address methamphetamine trafficking. Yet, our review found
that only one operation of the five enforcement operations conducted by the
METs referenced in the congressional testimony had methamphetamine as
its primary focus. We also determined that from the time the MET program
restarted in April 2008 through January 2010, 7 (26 percent) of 27 initiated
MET deployments had methamphetamine trafficking as the primary focus of
the deployment. DEA officials stated that they believed the MET Program’s
level of methamphetamine enforcement operations is sufficient to meet
Congress’ intent for the program.

       We also determined that with the FY 2008 funding to restart the
program, DEA headquarters and field managers decided they could have
more METs if the teams operated in metropolitan areas near division offices
where MET operations did not require overnight travel. DEA officials told us
that they based this decision on a desire to place METs in as many divisions
as possible to focus on the known gang problem rather than an approach
that considered other options for using METs. Therefore, despite its name,
the Mobile Enforcement Teams were not mobile. Rather, they were being
operated primarily in metropolitan areas near DEA offices. Consequently,
rural law enforcement agencies did not have the benefit of using MET
resources to address either methamphetamine or violent gang problems
within their jurisdictions.

       We also assessed the impact of MET program operations. Since the
MET program restarted in 2008, METs made 1,570 arrests, seized almost
1.6 tons of drugs, and disrupted or dismantled 150 drug trafficking
organizations.4 DEA field divisions generally reported that after MET
deployments ended, the target locations experienced decreases in drug sales
and violent crime, and that community reaction and involvement was
positive. However, DEA Post-Deployment reports showed that some types
of violent crimes increased in the 6-month period after a deployment ended.

       4
         Audit results are for the period May 1, 2008, through January 31, 2010. Details of
the drugs and property that were seized are shown in Exhibits 2 and 3.

                                            iii
      The DEA measures the performance of MET operations by tracking
arrests, seizures, and outcomes such as changes in crime rates, drug
availability, and the effect METs had on drug trafficking organizations. The
MET Program Handbook states that METs should assess each operation to
determine whether it had a lasting effect on the target area. Our review
found some post-deployment assessments were not completed or were
completed late, which made it difficult to assess what effect the MET
operation may have had on crime rates.

       Overall, we believe the DEA should consider whether to use more MET
resources to combat methamphetamine trafficking and whether METs should
be more mobile. The DEA should also update the MET program handbook so
that it accurately reflects the focus of the current MET program, and provide
relevant guidance to its field divisions. Further, we believe that the DEA
should better evaluate the results of each MET operation and use that
information to make decisions about how to best use the MET Program’s
limited resources.

     In our report, we make six recommendations to improve the DEA MET
program. The remaining sections of this Executive Summary summarize in
more detail our audit findings.

The DEA Informed Congress That It Used MET Program Funds
Primarily to Combat Violent Gangs, Although Congressional
Directives and DEA Policy Emphasize Methamphetamine
Enforcement

MET Program Focus

      The congressional conference report for the FY 2006 appropriations
directed the DEA to focus the MET program on combating methamphetamine
production, trafficking, and abuse.5

      In July 2007, the MET program was halted because of budget
constraints, and the President’s FY 2008 Congressional Budget Submission
did not request funding for the DEA’s MET program. However, Congress
appropriated $20.6 million for the MET program in FY 2008. In an
explanatory statement to the appropriations act, Congress stated that the

      5
          Conference Report, Making Appropriations for Science, the Departments of State,
Justice, and Commerce and Related Agencies for the Fiscal Year Ended September 30,
2006, and for Other Purposes (H.R. 2862), 2007, H. Rept. 109-272.

                                            iv
appropriation would permit the DEA to assist state and local law
enforcement agencies in their fight against methamphetamine and other
dangerous drugs.6 Consequently, DEA officials told us that METs could also
be used for enforcement operations other than methamphetamines.

      When Congress provided $30.6 million for the MET program in
FY 2009, the explanatory statements to the FY 2009 Appropriations Act
stated: “The bill provided an increase of $10 million to allow DEA to begin
rebuilding the MET program, both through the establishment of additional
METs and increasing the funds available for existing teams. The activities of
MET should continue to include a focus on methamphetamine enforcement.”7
In addition, a conference report for FY 2010 appropriations discussed a
budget increase from $30.6 million to $36.4 million for METs to “include a
focus on methamphetamine enforcement.”8 Although the language in the
conference report states that METs should “include a focus on
methamphetamines” this does not preclude the DEA from using METs to
address other drug issues.

      In July 2009 the DEA’s Assistant Administrator for Intelligence testified
before the U.S. House of Representatives Committee on Homeland Security
on the DEA’s efforts to combat Mexican drug cartels and associated
violence.9 The DEA official told the committee that the DEA was forming
four additional METs to target Mexican methamphetamine trafficking
operations. However, we found that only one of the five enforcement
operations conducted by those four METs had methamphetamine as its


       6
         U.S. House Committee Print on Consolidated Appropriations Act 2008 (H.R. 2764;
Public Law 110-1510, Division B – Commerce, Justice, Science, and Related Agencies
Appropriations Act, 2008, page 256.
       7
         U.S. House Committee Print on Omnibus Appropriations Act 2009 (H.R. 1105;
Public Law 111-8), Division B – Commerce, Justice, Science, and Related Agencies
Appropriations Act, 2009, page 273.
       8
         Conference Report, Departments of Transportation and Housing and Urban
Development, and Related Agencies Appropriations Act, 2010 (H.R. 3288). The report
stated “The activities of METs should continue to include a focus on methamphetamine
enforcement.” However, unless specifically referenced in the statute they accompany,
conference reports, committee reports, and explanatory statements do not have the force of
law and, therefore, are not legally binding on an executive branch agency.
       9
         Statement of Deputy Assistant Director for Field Operations, BATFE; and Assistant
Administrator for Intelligence, DEA, Before the Subcommittee on Border, Maritime, and
Global Counterterrorism Committee on Homeland Security, U.S. House of Representatives
Concerning “Combating Border Violence: The Role of Interagency Coordination in
Investigations,” July 16, 2009.

                                            v
primary focus. The Assistant Administrator did not describe the focus of the
other 10 existing METs.

       We also sought to identify other DEA documents and statements
pertaining to the DEA’s planned use for MET appropriations. We found that
in March 2009 the DEA’s Chief Financial Officer (CFO) issued a memorandum
to DEA executives, field managers, agents, and administrative officers
pertaining to the FY 2009 appropriation. The CFO’s memorandum stated
that $10 million of the appropriation was to add additional METs to continue
to include a focus on methamphetamine enforcement. Additionally, current
MET program policy states that METs should give priority to
methamphetamine enforcement operations. Therefore, while the DEA told
us in connection with our review that it believes Congress was informed that
the primary focus of its METs is on gang-related violence and drug-
trafficking, MET program policy and certain DEA statements, both to
Congress and to DEA employees, did not describe the focus of the program
in this way. We believe the DEA should update its program policy to reflect
the current focus of the MET program.

MET Deployment Focus

       In FY 2008, Congress provided $20.6 million to restart the MET
program. DEA officials decided that these limited funds would not be used
for travel costs. As a result, the DEA deployed METs in metropolitan areas,
close to the DEA offices.10 We found that DEA headquarters officials and the
14 field manager we interviewed view the restarted MET program as one
that focuses on violent gangs involved in drug trafficking. Because
methamphetamine is not trafficked in the inner city as extensively as are
drugs such as crack cocaine, methamphetamine was not the primary focus
of the restarted MET Program.

       We also found that since the restart of the MET program in FY 2008,
7 (26 percent) of 27 initiated deployments focused primarily on
methamphetamine trafficking. DEA officials told us that they believe this
level of methamphetamine enforcement is sufficient to meet Congress’ intent
for the MET program.

    However, because the DEA focused primarily on violent gangs within
commuting distance of the DEA office, METs had limited mobility.

       10
          An April 2008 teletype to DEA field offices stated that METs may still engage in
deployments requiring overnight travel, but DEA headquarters would not provide MET
funding for those costs.

                                             vi
Consequently, rural law enforcement agencies did not have the benefit of
using MET resources to address either methamphetamine or gangs
trafficking other types of drugs.

       Moreover, as discussed earlier, MET program policy states that field
mangers should prioritize MET deployments that focus on
methamphetamine. When we raised this program policy statement with DEA
officials, they told us the policy needed to be updated to reflect that gangs
and violence is the current focus of the MET program.

MET Deployment Locations

      As noted above, when the MET program restarted in FY 2008 without
authorizing travel funds, decisions about where to deploy METs were based
on proximity to the division office. As a result, METs were essentially not
mobile. We determined that for FY 2008, the target area for MET operations
was an average of 10.8 miles from the division office address.

       For FYs 2009 and 2010, the DEA did authorize the use of MET funds
for travel expenses. However, for those years only 4 of 16 deployments
were more than 50 miles from the division office. None of the deployments
were to a rural area where methamphetamine was the focus of the
deployment.11

       In restarting the MET program, the DEA chose to maximize the
number of divisions that could operate a MET over allowing the METs
mobility to travel to locations away from the division office. The DEA placed
METs in as many divisions as possible to focus on the violent crime in the
local metropolitan areas. We recognize that these deployments addressed
significant law enforcement needs, but the METs were not mobile, as
envisioned in the program’s design and did not target needs throughout the
divisions’ geographic jurisdictions, many of which covered large geographic
areas.

       Exhibit 1 shows the location of the division offices that re-established a
MET since FY 2008. Flags with a dot represent the field divisions that
initiated at least one deployment where methamphetamine was the primary
focus of the deployment.


       11
          In February 2009, one division received a request to deploy to a rural location
62 miles from the division office, but denied it because travel funds were not authorized for
METs until March 2009.

                                             vii
                               Exhibit 1: 

             DEA Field Divisions with a MET as of June 2010 





Source: DEA website

Deployment Selection Process

      A MET deployment typically begins with a request from a local law
enforcement executive or a DEA manager who has jurisdiction for the target
area. To assess the need to deploy a MET, the DEA Special Agent in Charge
(SAC) evaluates the drug problem and the capabilities of the local law
enforcement agency to address the problem. If a deployment is warranted,
the SAC approves the initial assessment and forwards that to the DEA
Operations Division for review and approval.

       However, we found the DEA did not have a standardized process to
identify local law enforcement agencies most in need of MET program
assistance. We also found that the basis for selecting deployments varied
                                     viii
between divisions. We concluded that the Chicago and Phoenix Division
offices provided MET assistance to those local law enforcement agencies that
provided better-defined targets. The Miami Division based deployment
decisions on DEA agents’ personal knowledge about the problem area. The
Miami Division also conducted a MET operation within commuting distance of
the division office because some of its MET agents had to be near their home
office due to other work obligations. The Los Angeles Division chose one of
its deployment locations because Division managers believed that the
location provided a good training exercise for new MET agents.

       We also found that DEA headquarters had little input into the selection
of deployment locations. The Office of Global Enforcement, Regional and
Local Impact Section at DEA headquarters, is the program management
office for the MET program. Field division managers first select a
deployment location and then provide the Regional and Local Impact Section
a copy of the request for deployment and their assessment of the request.
However, a field division does not provide the Section with details such as
other requests the field division receives, the field division’s assessment of
each request, an explanation of the factors weighed in selecting between
other requests, or detailed support for the deployment selected. The
Regional and Local Impact Section staff only reviews the documents
submitted for completeness and then recommends approval of the
deployment.

      The Regional and Local Impact Section staff told us that they do not
question the deployment decisions of the SACs. This was consistent with the
findings of our review, which determined that since the program restarted in
2008 the Section staff recommended approval for every one of the
27 deployment requests it received from field divisions. We concluded that
the Regional and Local Impact Section has very limited involvement in the
selection process.

      We believe the DEA could increase the value of MET deployments
through enhancing the involvement of the Regional and Local Impact Section
in the deployment selection process. The Section could develop and issue
guidance on selecting deployments objectively according to need, obtain
from the field divisions complete documentation for all of the deployment
requests, and review planned deployments more critically.

MET Outreach

      We assessed how the DEA promotes the MET program to law
enforcement agencies, including those in rural areas. Two DEA field

                                      ix
divisions sent letters and information packets to local law enforcement
agencies with instructions for requesting MET assistance. In the other
12 divisions with a restarted MET, DEA managers told us they met or
communicated with local law enforcement agencies.

      We found that requests for MET assistance have declined slightly since
the MET program restarted in 2008. We could not determine the reasons for
the decline, but we believe that the DEA could increase the number of
requests by increasing its outreach efforts to state and local law
enforcement agencies.

The DEA’s Assessment of the Success of MET Deployments

The DEA’s System for Evaluating MET Operations

      The DEA’s MET program handbook states that the goal of the MET
program is to reduce violence associated with drug trafficking, disrupt or
dismantle drug trafficking organizations, and reduce the availability of drugs.
The DEA’s policy in its program handbook for approving MET deployments
states that DEA Special Agents in Charge should give priority to requests for
MET assistance where methamphetamine enforcement is the primary focus
of the request.

      The DEA tracks arrests, seizures, and numbers of drug trafficking
organizations that were disrupted or dismantled. The DEA also conducts
pre- and post-deployment assessments of crime statistics within the target
area of the deployment. However, the DEA did not always conduct a
complete and timely assessment of each MET operation.

Results of MET Operations

       We examined the DEA’s various reports on MET deployments since the
program restarted. Since FY 2008, METs have dismantled 58 drug
trafficking organizations and disrupted 92 others.




                                       x
     Moreover, from May 2008 through January 2010, during
27 deployments METs made 1,570 arrests, which resulted in
340 convictions. The outcome for 1,230 arrests was still pending.12

      In addition to making arrests, the 27 MET deployments resulted in
drug and non-drug seizures shown in Exhibits 2 and 3.

       Exhibit 2: Grams of Drugs Seized During MET Operations
                   May 2008 through January 2010
                                                       Metham-
      Cocaine      Crack      Heroin      Marijuana
                                                      phetamine
      49,961.31   18,959.00  11,388.50   1,474,042.00 32,028.60
     Source: DEA Divisions with a MET

       Exhibit 3: Non-Drug Property Seized During MET Operations
                    May 2008 through January 2010
                                     Vehicles
           Cash      Property                        Firearms
                               Number      Value
         $1,764,698  $554,290    85      $1,729,049     297
       Source: DEA Divisions with a MET

Post-Deployment Reporting

      According to the MET program handbook, METs should assess and
document the results of each completed MET deployment in a Six-Month
Post-Deployment report. Between FY 2008 and January 2010, the DEA
completed nine MET deployments. We determined that for these nine
deployments, two Post-Deployment reports were submitted timely, and six
were submitted from 15 to 121 days late. As of July 7, 2010, one other




       12
           The DEA uses a statistical form for tracking arrests, guilty pleas, convictions,
acquittals, and dismissals. The DEA told us it only reports the number of arrests for each
deployment because of the delays that can occur between arrests and the final outcome of
those arrests, including dismissals. The DEA should ensure it completes the statistical form
for each arrest and uses that information to improve its operations. Unless the DEA tracks
dismissals, it cannot accurately gauge significant trends such as whether an unusually high
number of its arrests are resulting in pre-trial dismissals by prosecutors. We believe that
tracking dismissals and the reasons for the dismissal could provide information that will help
the DEA improve its operations.

                                              xi
report was 327 days late.13 Four of the late reports were not submitted until
we requested them from the DEA. Further, four divisions have opened
multiple investigative cases in different geographic target areas under a
single MET deployment, but they did not always complete a post-assessment
for each target area. The DEA should ensure METs timely complete an
assessment when operations in each target area have ended, so that the
DEA can assess whether the operation had a lasting impact on each target
area.

      We also found that for some post-deployment assessments, METs used
pre- and post-deployment crime statistics for a geographic area that is much
larger than the target area. Consequently, contrary to the implication of
these post-deployment assessments, changes in crime rates in large
geographic areas may not be attributable to MET operations. We believe
that the DEA should base pre- and post-assessments on crime statistics for
the defined target area.

      Each Six-Month Post-Deployment Report also contained a section
explaining how the local community reacted to the MET deployment and
what the local community was doing to reduce crime. In general, in these
reports the local communities had positive comments about MET operations,
but the reports provided little information about community involvement.

       According to the MET handbook, each report should include the local
law enforcement agency’s assessment of the deployment. However, for six
of eight assessments we reviewed, the field division provided its own
assessment rather than that of the local law enforcement agency. Two
divisions prepared nearly identical assessments for two different
deployments within each division, indicating that one assessment had been
copied from the prior assessment.

      Post-Deployment reports are a valuable tool for the DEA to use in
examining the success and failures of MET deployments. We believe that it
is important that reports be completed in a thorough, accurate, and timely
manner to assist the DEA in indentifying best practices and determining
areas requiring improvement.

      13
           The DEA has no policy for how quickly the Six-Month Post-Deployment Report
should be submitted after the 6-month post-deployment period has ended. We considered
the report to be timely if it was submitted within 7 months after the deployment ended.
The report that has not been submitted was 327 days past due for a MET deployment
initiated by the New Jersey Division. That deployment ended January 16, 2009, and the
post-deployment assessment report was therefore due August 14, 2009, according to our
definition of timeliness.

                                           xii
Conclusion and Recommendations

       DEA MET program operations have resulted in arrests, convictions, and
seizures of drugs and other property that led to disruptions and
dismantlements of drug trafficking organizations. Congress provided the
DEA MET funding for FY 2008 and stated that METs should focus on
“methamphetamine and other dangerous drugs.” When Congress provided
the DEA MET funding for FYs 2009 and 2010, it wanted DEA MET operations
to “include a focus on methamphetamine trafficking and operations.”
However, the DEA informed Congress in it budget submissions and answers
to questions from budget hearings that it planned to use METs to address
violent gangs trafficking various types of drugs. We determined that from
April 2008 through January 2010, 7 (26 percent) of 27 initiated MET
deployments focused primarily on methamphetamine enforcement. DEA
officials told us they believe this level of methamphetamine enforcement
operations is sufficient to meet Congress’ intent for the program. Yet, DEA
officials agreed that its MET program policy, which states that
methamphetamine is the program’s main focus, should be updated to reflect
the DEA’s current view that METs should focus primarily on violent gangs.

       We also found that, despite its name, the DEA’s “Mobile Enforcement
Teams” were not mobile because they operated primarily in metropolitan
areas to combat gangs trafficking various types of drugs. Consequently,
local law enforcement agencies in rural areas did not have the benefit of
using METs to address either methamphetamine or gang problems within
their jurisdictions.

       In this report, we make six recommendations to help improve the
DEA’s MET program, including that the DEA consider whether it should use
more MET resources to combat methamphetamine production and
trafficking, update the MET program handbook to reflect the current focus of
the program, and provide relevant guidance to its field divisions. We also
recommend that the DEA make improvements pertaining to outreach efforts,
its process for reviewing and selecting from competing requests for MET
assistance, and its procedures for reporting and evaluating the results of
MET operations.




                                    xiii
                                TABLE OF CONTENTS


INTRODUCTION ............................................................................... 1 

    Background ................................................................................. 1 

     MET Program Funding.................................................................. 2 

    MET Request Process................................................................... 7 

     Prior Audits, Inspections, and Reviews........................................ 8 

       General Accounting Office Report................................................... 8 

       DEA Office of Inspections Reports.................................................. 9 

OIG FINDINGS AND RECOMMENDATIONS....................................... 10 

I.	 THE DEA INFORMED CONGRESS THAT IT USED MET PROGRAM 

    FUNDS PRIMARILY TO COMBAT VIOLENT GANGS, ALTHOUGH

    CONGRESSIONAL DIRECTIVES AND DEA POLICY EMPHASIZE 

    METHAMPHETAMINE ENFORCEMENT ......................................... 10 

     MET Program Focus ................................................................... 10 

      Congressional Interest in Methamphetamine Enforcement and 

       the DEA’s Reported MET Focus.................................................. 10 

      The DEA’s MET Program Policies.................................................. 14 

    MET Deployment Focus .............................................................. 15 

     Deployments ............................................................................. 19 

       Deployment Locations ............................................................... 19 

       Deployment Selection Process .................................................... 20 

       MET Outreach........................................................................... 23 

     Conclusion................................................................................. 24 

     Recommendations ..................................................................... 25 

II. THE DEA’s ASSESSMENT OF THE SUCCESS OF MET 

    DEPLOYMENTS ........................................................................... 27 

     The DEA’s System for Evaluating MET Operations ...................... 27 

     Results of MET Operations ......................................................... 28 

       Arrests and Seizures ................................................................. 28 

       Disruptions and Dismantlements ................................................. 31

     Six-Month Post-Deployment Assessment Reports ...................... 33 

       Completed Reports.................................................................... 33 

     Conclusion................................................................................. 35 

     Recommendations ..................................................................... 36 

STATEMENT ON INTERNAL CONTROLS............................................ 37 

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 38 

APPENDIX I:    OBJECTIVES, SCOPE, AND METHODOLOGY ............. 39 

APPENDIX II:   DETAILS OF SIX-MONTH POST-DEPLOYMENT 

                ASSESSMENTS .................................................... 40 

APPENDIX III: STABILITY OF THE TARGET AREA GRAPHS ............. 45 

APPENDIX IV:   DURATION OF DEPLOYMENTS ................................ 49 

APPENDIX V:    THE DEA’S RESPONSE TO THE DRAFT AUDIT 

               REPORT ................................................................. 51 

APPENDIX VI:   OIG ANALYSIS AND SUMMARY OF ACTIONS 

               NECESSARY TO CLOSE THE REPORT ....................... 56 

                                  INTRODUCTION 


Background

       The Drug Enforcement Administration (DEA) enforces the controlled
substances laws and regulations of the United States and investigates
organizations and individuals involved in the growing, manufacture, or
distribution of controlled substances.1 According to the Department’s
strategic plan for combating illegal drugs and associated violence, the DEA
also partners with state and local law enforcement agencies to provide
training and carry out enforcement operations. The DEA coordinates with
federal, state and local law enforcement officials on mutual drug
enforcement efforts when efforts are beyond local or limited federal
jurisdictions and resources.

       In 1995, the DEA established its Mobile Enforcement Team (MET)
program to address violent drug-related crime and help rural local law
enforcement agencies confront drug trafficking. METs were placed in DEA
field divisions, which often are responsible for a multi-state area. METs can
deploy to any location within its field division’s jurisdiction when a local law
enforcement agency requests MET assistance. For example, a local law
enforcement agency can request MET assistance because budget constraints
and limited investigative capabilities make it difficult for the agency to
conduct a comprehensive investigation of the targeted drug trafficking
organization. MET deployments also can be based on a local agency’s
inability to conduct undercover operations because local drug dealers
recognize the local jurisdiction’s narcotics officers. The most common type
of assistance provided by a MET is using informants and making undercover
purchases of drugs.

       The DEA’s policy for approving MET deployments explains that the goal
of the MET program is to reduce drug related violence and disrupt or
dismantle the rapidly increasing number of methamphetamine drug
traffickers and laboratories. According to the MET program handbook, by
targeting these organizations the DEA intends its METs to remove offenders
from communities’ streets and have a significant impact on drug-related
violence and drug availability.



       1
           A controlled substance is a drug that has been declared by federal or state law to
be illegal for sale or use. Some controlled substances may be dispensed under a physician's
prescription.

                                             1

MET Program Funding

       Beginning in 1995 and through June 2007, each of the DEA’s 21 field
divisions had a MET consisting of approximately 8 to 10 DEA Special Agents
and a supervisor.

      In March 2005, the DEA updated the MET program handbook to make
methamphetamine investigations a priority for the MET program. The policy
for approving MET deployments stated that DEA Special Agents in Charge
should give priority to requests for MET assistance where methamphetamine
enforcement is the primary focus of the request. In fiscal year (FY) 2005,
41 percent of new MET deployments targeted methamphetamine trafficking
organizations.

      In July 2007, funding for the MET program was reduced because of
budget constraints. The DEA's spending plan for its FY 2007 appropriation,
which Congress approved, reduced the MET program funding by two-thirds
to just over $20 million, including funding only for the first three quarters of
FY 2007. Because the plan did not include funding for the fourth quarter of
FY 2007, the DEA determined that all MET deployments had to be completed
no later than July 1, 2007.

     The President’s FY 2008 Congressional Budget Submission did not
request funding for the DEA’s MET program. As shown in Exhibit 1, between
October 1998 and June 2007 MET program staffing peaked in FYs 2000 and
2001, and funding peaked in FY 2004.




                                       2

                                  Exhibit 1: 

                        Staffing and Funding for METs 

                    October 1, 1998, through June 30, 2007 

                 Fiscal   Special     Support      Funding
                  Year    Agents     Personnel2
                 1999      260           22       $51,100,000
                 2000      272           30       $53,900,000
                 2001      272           30       $56,780,000
                 2002      264           28       $57,294,000
                 2003      228           23       $52,049,000
                 2004      216           23       $59,311,000
                 2005      212           22       $56,348,000
                 2006      212           22       $48,517,000
                      3
                 2007       80            3       $20,578,000
                 Total                          $455,877,000
                 Source: DEA Budget Office

     For FY 2008, Congress appropriated $20.6 million for the MET
program, despite the fact that the President’s FY 2008 Congressional Budget
Submission did not request any funding for the DEA’s MET program. The
explanatory statements to the FY 2008 Appropriations Act specified that
METs should target methamphetamine and other dangerous drugs.4

     With this funding enhancement, in May 2008 the DEA re-established a
MET in the following 10 DEA field divisions: Dallas, Detroit, Houston,
Los Angeles, Miami, New Jersey, Philadelphia, St. Louis, San Diego, and
Washington.



       2
          Support personnel include professional, administrative, technical, and clerical
personnel such as program analysts, administrative specialists, budget analysts, and group
assistants.
       3
           The DEA discontinued the MET program July 1, 2007.
       4
         U.S. House Committee Print on Consolidated Appropriations Act 2008 (H.R. 2764;
Public Law 110-1510, Division B – Commerce, Justice, Science, and Related Agencies
Appropriations Act, 2008, page 256. The explanatory statements states “Furthermore, the
Administration’s proposal to eliminate the Mobile Enforcement Teams (MET) program and
reduce further the number of DEA agents and support staff is believed to be ill-advised.
Therefore, the Administration is directed to use remaining funds above the request to
continue this program. This will enable the DEA to retain special agents, allowing DEA to
continue assisting state and local law enforcement in their fight against methamphetamine
and other dangerous drugs.”

                                             3

       In its FY 2009 budget submission, DEA stated that it planned to use
METs to focus on gangs and violence. For FY 2009, Congress appropriated
$30.6 million for the MET program and directed in an explanatory statement
that MET operations should “include a focus” on methamphetamine
trafficking.5 With the additional $10 million beyond what was appropriated
in FY 2008, the DEA established a MET at another four field divisions located
in Atlanta, Chicago, El Paso, and Phoenix for the purpose of targeting
Mexican methamphetamine trafficking operations and associated violence.6

      The DEA also informed Congress through its FY 2010 budget
submission that it planned to use METs to focus on gangs and violence. For
FY 2010, Congress appropriated $36.4 million for MET operations and stated
in a conference report that with the increased funding from the prior fiscal
year, the DEA MET program should continue to ”include a focus” on
methamphetamine enforcement.7 With the increased funding, the DEA
added two additional METs in FY 2010 (July) at the New Orleans and
Caribbean Divisions.

       Exhibit 2 shows the DEA field divisions with a MET as of June 2010.
Field divisions with a red flag received a MET in FY 2008 and the field
divisions with a black flag received a MET in FY 2009. Flags with a dot
represent the field divisions that initiated at least one deployment that
focused primarily on methamphetamine.




       5
         The explanatory statements state, “The bill provides an increase of
$10,000,000 to allow DEA to begin rebuilding the MET program, both through the
establishment of additional teams and by increasing the funds available for existing
teams. The activities of MET should continue to include a focus on
methamphetamine enforcement.”

       6
           The Phoenix Division’s MET is located in Tucson, Arizona.
       7
         The conference report states “The activities of MET should continue to include a
focus on methamphetamine.”

                                               4

                                Exhibit 2: 

             DEA Field Divisions with a MET as of June 20108





Source: DEA Website

     Exhibit 3 shows the number of MET personnel and funding for
FYs 2008 through 2010, and the proposed personnel and funding for
FY 2011.




      8
          In July 2010, the DEA established a MET at the New Orleans and Caribbean
Divisions.

                                            5

                                     Exhibit 3:
                 Personnel and Funding for the MET Program
                   May 1, 2008, through September 30, 2011
                 Fiscal   Special     Support
                                                   Funding
                 Year     Agents     Personnel
                 2008        80           3       $20,578,000
                 2009       112         15        $30,578,000
                 2010       128         17        $36,396,000
                 2011       128         17        $38,046,000
                 Total                          $125,598,000
                 Source: DEA Budget Office

      As shown in Exhibit 4, the DEA used most MET funding for pay and
benefits for DEA staff. MET infrastructure spending included expenditures
for network connections, training, permanent change of stations costs, and
supplies.

                                  Exhibit 4: 

                   MET Expenditures for FY 2008 and FY 2009 

                            (Dollars in Millions)9



                                                                          $0.6

 FY 2008                 $11.1                $4.0       $2.1 $1.5 $1.3
                                                                                 Pay and Benefits
                                                                                 Infrastructure
                                                                                 Equipment
                                                                $1.3   $1.5      Vehicles
                                                                                 Rent and Facilities
 FY 2009                   $18.9                  $3.8   $3.1      $2.0
                                                                                 PE/PI




           0%        20%           40%      60%           80%             100%

Source: DEA Budget Office




      9
           PE/PI is the purchase of evidence or the purchase of information.

                                               6

MET Request Process

       The DEA MET Program Handbook contains MET program requirements
and guidelines and also includes the requirements for requesting MET
assistance. When a local law enforcement agency needs MET assistance, it
must submit a request letter to its local DEA field division office.
Alternatively, a DEA supervisory official, such as an Assistant Special Agent
in Charge or Resident Agent in Charge, with knowledge and jurisdiction over
the corresponding geographic area, can request a MET deployment through
a memorandum to one’s field division Special Agent in Charge. If a DEA
official requests MET support, the request should include documented
concurrence from the local law enforcement agency’s chief executive.

      According to the MET Program Handbook, all MET deployment requests
should include a pre-deployment assessment that documents the drug and
related violence problem and that explains the local law enforcement
agency's inability to address the problem. The DEA records the pre-
deployment assessment in the form of a checklist, which incorporates
18 elements designed to evaluate the needs and the abilities of the local law
enforcement agency.

       The MET Program Handbook provides that DEA Special Agents in
Charge, at their discretion, may deploy the MET to support Priority Target
Organization investigations within the field division’s geographic jurisdiction,
with the concurrence of the DEA Office of Global Enforcement’s Regional and
Local Impact Section.10 Deployments initiated at a Special Agent in Charge’s
discretion, absent the request from a local law enforcement executive, must
also include the pre-deployment assessment.

      The MET Program Handbook states that when assessing the need to
deploy a MET to a community, the Special Agent in Charge should evaluate
the scope of the drug and related violence problem within a specifically
delineated geographic area. The Special Agent in Charge should also
communicate with on-site DEA supervisory personnel and assess the
capability of the local DEA office and local law enforcement community to
address the drug and violence problem. According to the handbook,
because DEA's resources are limited, a MET should deploy only when it is


       10
           Priority Target Organization is a designation that DEA attributes to the most
significant international, national, regional, and local drug trafficking and money laundering
organizations affecting drug availability. The Office of Global Enforcement Regional and
Local Impact Section is the DEA component that monitors the MET Program.

                                              7

obvious that the problem is beyond the immediate capabilities of both the
local DEA office and the local law enforcement community.

       The DEA’s policy for approving MET deployments also states that the
Special Agent in Charge should prioritize all requests for MET deployments
where methamphetamine is the primary drug threat. According to the DEA
policy, when selecting a deployment that does not target methamphetamine
the DEA should focus on the subject community’s violent crime rate and the
targeted drug trafficking organization’s involvement in that violence. Special
Agents in Charge should also be sure that the deployment targets meet the
criteria of a DEA-designated Priority Target Organization.

Prior Audits, Inspections, and Reviews

General Accounting Office Report

      In July 2001, the U.S. General Accounting Office – now the
U.S. Government Accountability Office (GAO) – issued a report on the DEA’s
Mobile Enforcement Teams.11 The GAO concluded that since establishing the
program in 1995 the DEA had enhanced its management of the program and
provided for greater headquarters oversight and monitoring. In
implementing the program and carrying out deployments, the field division
METs generally complied with some of the pertinent requirements and
guidelines that the GAO reviewed. The GAO found that MET deployments
focused primarily on street-level drug dealers and were mostly local and
regional in scope, which was consistent with the objectives of the program.

      However, the GAO found that DEA headquarters files did not contain
adequate documentation showing the DEA evaluated the local law
enforcement agencies’ capabilities. Consequently, the GAO could not
determine whether local law enforcement agencies could alone address the
problems for which they requested MET assistance.

       The DEA collected data on various performance measures to assess
the results of individual deployments and the overall program. The DEA
reported internally and externally on program results for some of the
performance measures. The GAO determined that the measures had
problems and limitations related primarily to the inconsistency in data
collection.


      11
          U.S. General Accounting Office, DEA'S MOBILE ENFORCEMENT TEAMS, Steps
Taken to Enhance Program Management, But More Can Be Done, GAO-01-482 (July 2001).

                                        8

      The GAO recommended that the DEA provide clear guidance for METs
to use in assessing local law enforcement agencies' capabilities, and ensure
that the DEA field divisions document such assessments and provide them to
DEA headquarters before MET deployments are approved. The GAO also
recommended that the DEA develop data collection methods and a survey
instrument to better assess individual MET deployments and the MET
program as a whole.

       In response to the GAO recommendations, in April 2002 the DEA
reported that it had updated its MET program guidelines and included a
newly mandated MET Assessment Checklist that would be used to assess
local law enforcement capabilities and would be submitted with the request
for a MET deployment.

      The DEA also reported to the GAO that it tried to implement GAO's
recommendation regarding data collection and survey instruments.
However, the DEA determined that obtaining information using a survey
instrument would be cost prohibitive, and the DEA reported to GAO that its
MET program would continue collecting information from law enforcement
agencies and measuring performance in essentially the same manner as it
had when the GAO performed its review.

DEA Office of Inspections Reports

       The DEA Office of Inspections performs periodic inspections of division
offices covering key program areas, including the MET program. DEA
inspection reports outline findings and require field divisions to take
appropriate corrective actions.

       The DEA Office of Inspections provided us with reports pertaining to
MET program activities within six field divisions. Two reports covered a
period coinciding with the period covered by our audit. Both reports
included arrest and seizure data as support for the MET program’s
effectiveness. The two reports stated that each MET was utilizing its MET
resources to support the DEA’s mission and enforcement priorities.




                                      9

      OIG FINDINGS AND RECOMMENDATIONS

I.	   THE DEA INFORMED CONGRESS THAT IT USED MET
      PROGRAM FUNDS PRIMARILY TO COMBAT VIOLENT
      GANGS, ALTHOUGH CONGRESSIONAL DIRECTIVES
      AND DEA POLICY EMPHASIZE METHAMPHETAMINE
      ENFORCEMENT

      For FY 2008, an explanatory statement accompanying the
      DEA appropriation stated that MET operations should focus
      on "methamphetamine and other dangerous drugs.” With
      the FYs 2009 and 2010 funding enhancements,
      congressional documents stated that METs should “include a
      focus on methamphetamine.” However, the DEA informed
      Congress in annual budget submissions and DEA answers to
      questions from budget hearings that it planned to use METs
      to address violent gangs involved in drug trafficking. We
      found that since the DEA’s MET program returned to
      operation in May 2008, 7 (26 percent) of the 27 initiated
      deployments focused on methamphetamine trafficking. DEA
      officials told us they believe this level of methamphetamine
      enforcement operations is sufficient to meet Congress’
      intent for the program. However, existing DEA MET
      program policy states that methamphetamine should be the
      focus of the program. DEA officials stated that this policy
      requires updating to reflect the DEA’s current view that
      METs should focus primarily on combating violent gangs.

      We also found that Mobile Enforcement Teams were not
      mobile because the DEA deployed METs mainly within field
      divisions’ metropolitan areas to combat gangs trafficking
      mostly cocaine and crack cocaine. Consequently, rural law
      enforcement agencies did not have the benefit of using MET
      resources to address either methamphetamine or gang
      problems within their jurisdictions.

MET Program Focus

Congressional Interest in Methamphetamine Enforcement and the DEA’s
Reported MET Focus

      Prior to the temporary halt of the MET program in July 2007, and since
the program restarted in May 2008, Congress had stated that it was funding
                                      10 

the DEA’s MET program to focus on methamphetamine. The Conference
Report accompanying the Science, State, Justice, Commerce, and related
Agencies Appropriations Bill for FY 2006 stated: 12

       The conference agreement does not adopt the Administration’s
       proposal to reduce Mobile Enforcement Teams or to eliminate
       the Demand Reduction program. The conference agreement
       funds these programs at their current services level. The
       conferees direct the DEA to focus these programs on combating
       methamphetamine production, trafficking and abuse.

       FY 2007 MET Funding - $20.6 million

    The Committee Report accompanying the Science, State, Justice,
Commerce, and related Agencies Appropriations Bill for FY 2007 stated:

       The recommendation includes $37,746,000 for the MET program,
       which is $17,168,000 above the level requested.13 MET teams are
       deployed on a temporary basis to assist state and local law
       enforcement in areas that have been overrun with drug-related violent
       crime. The Committee is very disappointed that the Administration
       once again proposed a significant reduction to this program to reduce
       drug-related violence throughout the country.

      On June 30, 2007, the DEA ended the MET program due to budgetary
constraints. The sections that follow summarize the annual congressional
statements beginning with FY 2008 that pertain to the MET program and
information regarding the program provided to Congress by the DEA.

       FY 2008 MET Funding - $20.6 million

       The July 19, 2007, House Report accompanying the FY 2008
Commerce, Justice, Science, and Related Agencies Appropriations Bill
discusses the MET program in a section dedicated to methamphetamine
trafficking enforcement. The report stated:


       12
           Unless specifically referenced in the statute, conference reports, committee
reports, and explanatory statements do not have the force of law and therefore are not
legally binding on an executive branch agency.
       13
          As explained previously, the DEA MET program budget was cut by two-thirds in
FY 2007, and the DEA was only able to fund FY 2007 MET operations for the first three
quarters of the fiscal year.

                                            11 

      Small domestic amateur labs, in home kitchens, motel rooms, or
      still (sic) produce methamphetamine within the United States.
      Since March 2005, the DEA Mobile Enforcement Teams (MET)
      have made methamphetamine investigations a priority. In fiscal
      year 2005, 41 percent of new MET deployments targeted
      methamphetamine trafficking organizations. However, the
      President's request for fiscal year 2008 terminates this program,
      which bolsters state and local law enforcement. The Committee
      rejects this proposal, and includes $20,578,000 for MET teams.

      The “Highlights of the Bill” section of the report stated that the DEA is
to receive “$2.082 billion, $125 million over FY 2007 and $40 million over
the FY 2008 request, including restoring Mobile Enforcement Teams’
methamphetamine efforts.”

      The December 17, 2007, explanatory statements attached to the
FY 2008 Consolidated Appropriations Act, Division B-Commerce, Justice,
Science, and Related Agencies state:

      Furthermore, the Administration’s proposal to eliminate the
      Mobile Enforcement Teams (MET) program and reduce further
      the number of DEA agents and support staff is believed to be
      ill-advised, and therefore the Administration is directed to use
      remaining funds above the request to continue this program.
      This will enable DEA to retain special agents, allowing DEA to
      continue assisting State and local law enforcement in their fight
      against methamphetamine and other dangerous drugs.

      DEA officials told us that in their view, the language “and other
dangerous drugs” indicates a congressional understanding that the MET
program would not focus exclusively or primarily on methamphetamine
enforcement. Moreover, as discussed below, in May 2008 the DEA told
Congress it would use the FY 2008 appropriation to establish 10 METs to
focus on the parts of the country with the greatest violent crime and gang
problems.

FY 2009 MET Funding - $30.6 million

     In February 2008, the DEA submitted its FY 2009 Congressional
Budget, which stated:

      In DEA’s FY 2008 appropriation, $20.6 million and 83 positions for the
      MET program were funded. DEA is evaluating how best to use these
                                      12 

      resources to address drug trafficking that involves criminal street
      gangs and violent crime. With this funding and these positions, the
      DEA will continue the Administration’s efforts against gangs and
      violence.

      DEA officials told us that the language in its budget submissions clearly
indicated to Congress that the restarted MET program had a primary focus of
enforcement operations against gangs and violence.

      Following an April 2008 Department of Justice House Appropriations
Committee hearing, Congress asked what options the DEA was considering
to best use the $20.6 million appropriated for METs in FY 2008. In May
2008, the DEA responded that it intended to establish 10 teams and focus
them in areas of the country with the greatest violent crime and gang
problems.

      However, the explanatory statements appended to the FY 2009
Consolidated Omnibus Appropriations Act, Division B-Commerce, Justice,
Science, and Related Agencies state:

      The bill provides an increase of $10,000,000 to allow DEA to
      begin rebuilding the MET program, both through the
      establishment of additional teams and by increasing the funds
      available for existing teams. The activities of MET should
      continue to include a focus on methamphetamine enforcement.

      DEA officials told us that in their view, the language “ to include a
focus on methamphetamine enforcement” demonstrated the congressional
understanding that MET deployments would focus somewhat on
methamphetamine, but would not focus exclusively or primarily in that
enforcement area.

      FY 2010 MET Funding - $35.6 million

     In May 2009, the DEA submitted its FY 2010 Congressional Budget
request, which stated:

      Today, MET teams are deployed on a temporary basis (averaging
      6 months per deployment) to assist state, local, and tribal law
      enforcement in the disruption or dismantlement of violent drug
      trafficking organizations and gangs.



                                      13 

       On July 16, 2009, the DEA’s Assistant Administrator for Intelligence,
and a Deputy Assistant Administrator from the Bureau of Alcohol, Tobacco,
Firearms and Explosives, provided a joint statement to the U.S. House of
Representatives Committee on Homeland Security, Subcommittee on
Border, Maritime, and Global Counterterrorism on interagency coordination
concerning border violence. The statement informed the committee that the
DEA was adding METs to four additional field divisions specifically to target
Mexican methamphetamine trafficking operations and associated violence.
However, we determine that as of January 2010, only one of those four
divisions (Atlanta) had a deployment that targeted methamphetamine.
The statement did not comment on the focus of the other 10 previously
re-established METs.

     The December 8, 2009 Conference Report accompanying the
Commerce, Justice, Science, and Related Agencies Appropriations Bill for
FY 2010 states:

      The conference agreement includes $5,000,000 above the
      request to continue re-establishing Mobile Enforcement Teams
      (MET) in each domestic field office. The activities of MET should
      continue to include a focus on methamphetamine enforcement.

      DEA officials told us they believe that the language “continue to
include a focus on methamphetamine enforcement” again
demonstrated the congressional understanding that MET deployments
would focus somewhat on methamphetamine, but would not focus
exclusively or primarily in that enforcement area.

The DEA’s MET Program Policies

      The MET program operates under a written policy developed in 1995
by personnel in the DEA’s Office of Domestic Enforcement. The policy states
that the goal of the MET program is to:

   	 reduce violence that is a result of drug trafficking;

   	 curb the rapidly increasing number of methamphetamine drug
      trafficking organizations and the operators of clandestine laboratories;
      and

   	 disrupt or dismantle drug trafficking organizations, thus reducing the
      availability of drugs.

                                       14 

       The policy requires Special Agents in Charge to assess the need to
deploy a MET to a community, evaluate the scope of the drug and related
violence problem within a specifically delineated geographic area, and
prioritize all requests for MET deployments where methamphetamine is the
primary drug threat.

      In 2005, the DEA updated the MET Program Handbook to reflect that
Special Agents in Charge should give priority to requests for MET assistance
that had methamphetamine as the primary focus of the request.

      Our attempts to locate other DEA documents and statements
explaining the DEA’s planned focus for the MET program identified one
internal memorandum pertaining to the DEA’s planned use for the FY 2009
appropriation.

      On March 31, 2009, the DEA’s Chief Financial Officer (CFO) distributed
a memorandum to DEA executive managers regarding the FY 2009 Omnibus
Appropriations Act. The memorandum explained that the FY 2009
appropriation included funds to add four METs to focus on
methamphetamine enforcement. An appendix to the memorandum stated
that the enhancement would allow the DEA to begin rebuilding the MET
program, both through the establishment of additional teams and by
increasing the funds available for existing teams. The appendix also stated
that the activities of MET should continue to include a focus on
methamphetamine enforcement.

     The DEA’s CFO told us that the appendix to the March 2009
memorandum, which states that METs “should continue to include a focus on
methamphetamine enforcement,” makes it clear that the DEA would focus
somewhat on methamphetamine, but would not focus exclusively or
primarily in that area.

       Since the restart of the MET program, the DEA had described it as a
program focusing on gangs and violent crime. However, during this time,
MET program policy has not changed from its emphasis on
methamphetamine. We believe that policy requires updating to clearly
reflect the DEA’s intended focus for the program.

MET Deployment Focus

      Our review found that in FYs 2005 and 2006, 41 percent and
56 percent of all MET deployments focused on methamphetamine production
and trafficking. For FY 2007, before funding for the MET program depleted
                                     15 

that year, the DEA planned to focus 60 percent of its MET deployments on
methamphetamine.

      However, in April 2008, immediately before the MET program
restarted, the DEA headquarters sent a teletype to all DEA Domestic Offices
that explained the restart of the MET program and included guidance on a
deployment model for anti-gang and violent crime investigations. The
teletype stated that the reason for the teletype was to provide guidance for
MET and non-MET anti-gang violent crime investigations and that METs
should continue to conduct single focus investigations at the request of
state, local, and tribal law enforcement agencies.

       The Chief of the Regional and Local Impact Section told us that this
model aligned with the Attorney General’s mandate for gang enforcement.
He also told us that the direction in the MET Program Handbook that Special
Agents in Charge should give priority to deployment requests focusing on
methamphetamine needed to be updated to reflect the new focus as
reflected in the April 2008 teletype to the Divisions about the restart of the
MET program.

       Our audit found that since May 2008, when the DEA restarted the MET
program, MET deployments have focused primarily on violent gangs involved
in drug trafficking. The violent gangs targeted by MET deployments were
mainly in metropolitan areas and focused on cocaine and crack cocaine
trafficking.

      We reviewed deployment requests and pre-deployment assessments
prepared by DEA staff for each of the 27 MET deployments from May 2008
through January 2010. We determined that 7 (26 percent) of the
27 deployments included methamphetamine as a focus, as shown in
Exhibit 5.




                                      16 

                                       Exhibit 5: 

                       MET Deployment Drug Focus and Distance 

     Division Office    Deployment Location           Deployment Drug Focus             Distance14
     Dallas            Fort Worth, TX         Cocaine/Crack Cocaine                         31.4
     Detroit           Detroit, MI            Cocaine/Heroin                                 0.5
F    Houston           Houston, TX            Methamphetamine/Cocaine/Marijuana              6.7
Y
     Los Angeles       Pasadena, CA           Methamphetamine/Crack Cocaine                 10.8
     Miami             Opa-Locka, FL          Crack Cocaine                                 22.2
2
     New Jersey        Newark, NJ             Heroin                                         0.3
0
     Philadelphia      Philadelphia, PA       Cocaine                                        1.0
0
     St. Louis         St. Louis, MO          Crack Cocaine/Heroin/Ecstasy                   2.5
8
     San Diego         San Diego, CA          Cocaine/Crack Cocaine                          9.5
     San Diego         Oceanside, CA          Cocaine/Crack Cocaine                         32.5
     Washington        Washington, DC         Heroin                                         1.9
     Chicago           Chicago, IL            Heroin                                         9.1
     Dallas            Greenville, TX         Cocaine/Crack Cocaine                         60.9
F    Houston           Montgomery Co., TX     Methamphetamine                               44.4
Y    Los Angeles       Los Angeles, CA        Methamphetamine/Cocaine/Heroin                 0.4
     Miami             Coral Springs, FL      Cocaine                                       17.6
2    Miami             Fort Lauderdale, FL    Cocaine                                       21.4
0    New Jersey        Irvington, NJ          Heroin                                         4.3
0    Philadelphia      Darby Borough, PA      Cocaine/Crack Cocaine                          6.1
9    Phoenix           Casa Grande, AZ        PCP/Cocaine/Crack Cocaine                    74.915
     San Diego         San Diego, CA          Methamphetamine/Cocaine/Marijuana              9.5
F    Atlanta           Atlanta, GA            Methamphetamine                                0.6
Y    Chicago           Chicago Heights, IL    Heroin/Crack Cocaine                          32.3
     El Paso           Espanola, NM           Heroin                                       347.0
2    Los Angeles       Antelope Valley, CA    Cocaine/Crack Cocaine                         78.5
0    Miami             Allapattah, FL         Cocaine/Crack Cocaine                         27.2
1    San Diego         San Diego, CA          Methamphetamine/Ecstasy                        9.5
0
    Source: DEA MET deployment files and OIG calculation of mileage

           The focus of each MET deployment is described in the pre-deployment
    assessment. A MET deployment may result in the seizure of other types of
    drugs not intended to be the focus of the deployment. For example, the
    Dallas division had two MET deployments that were to focus on cocaine and
    crack cocaine. As shown later in this report, those MET operations resulted
    in seizures of relatively small quantities of heroin, marijuana, and
    methamphetamine in addition to large quantities of cocaine and crack
    cocaine.

           14
              We used the Division office address on the DEA website and the city center
    address to calculate the miles between the Division Office and the deployment location.
           15
             The division address used to calculate this distance was the Tucson office, where
    the Phoenix MET is located.

                                                17 

       DEA officials at the Regional and Local Impact Section told us that the
current MET program focused on drug trafficking associated with violent
gangs. We also surveyed the 14 DEA field divisions with a MET and asked
officials in those divisions for their view of the program’s focus. These
14 divisions stated that the primary focus of their MET deployments was
gang-related drug crimes or drug-related violence.16 For example, the
St. Louis Division Assistant Special Agent in Charge told us that the MET
would focus on methamphetamine if the violent gang targets were trafficking
methamphetamine, but he acknowledged that violent crime is not usually
associated with methamphetamine trafficking. The St. Louis Division
Assistant Special Agent in Charge told us the Division received a MET
because crime rates in the St. Louis area were high.

      The DEA’s Chief of the Regional and Local Impact Section told us that
because the DEA did not authorize MET funding for travel in FY 2008, each
MET had to deploy in its local metropolitan area.17 The Chief said that
because methamphetamine is not trafficked in the inner city as extensively
as other drugs, methamphetamine was not a focus of the restarted
deployments. He also said that the 2008 deployments started late in the
year and extended into FY 2009, causing MET efforts to continue focusing on
drugs other than methamphetamine. He said that when travel funding did
not permit a methamphetamine focus, MET deployments focused instead on
the Attorney General’s violent gang initiative, which was also an
investigative priority. The official also said that the MET policy is outdated
and should be revised to reflect violent gangs as its focus.

      Because the DEA did not authorize funding for travel and focused on
violent gangs within commuting distance of the DEA office, METs had limited
mobility. The DEA’s Assistant Administrator, Chief of Operations, told us
that the $20.6 million appropriated for FY 2008 was not sufficient to
reinstate the MET program to its previous levels. The DEA had to choose
between having METs in more divisions or having fewer METs that were
more mobile. The official told us that headquarters and division managers
discussed this problem and decided they could maximize MET resources by


          16
         Twelve of the 14 divisions responded that the primary focus of their METs was
gangs, one reported that it was cartel violence, and another responded that violence was its
MET focus.
          17
               Further details regarding MET travel are contained in the next section of this
report.

                                                  18 

focusing on violent gangs operating in metropolitan areas, as they did when
the MET program first started in 1995.

Deployments

Deployment Locations

       As noted above, at the restart of the MET program in FY 2008 the DEA
Assistant Administrator, Chief of Operations, decided that the DEA would not
use MET funding for travel costs. The Assistant Administrator told us he
based this decision on the limited amount of MET funds available for use and
the fact that the division offices were located in cities with significant
increases in violent crime that the program could target. The decision to
limit travel funds required the DEA field divisions to select MET deployments
based on proximity to the DEA division office rather than any other
consideration of need.

       Because the DEA did not authorize MET funding for travel expenses, all
FY 2008 initiated deployments were to locations within 50 miles of the
division office so that DEA staff would not incur travel expenses.18
Deployment locations ranged from 0.3 to 32.5 miles from the field divisions’
addresses. Some DEA divisions are responsible for a geographic area
covering four or five states and more than 350,000 square miles. For
FY 2008 deployments, Exhibit 5 on page 17 shows the division office,
deployment location, and the distance from the division office to the
deployment location. Deployment locations averaged 10.8 miles from the
division office address.

      For FY 2009, the DEA authorized using MET funds for travel expenses.
These funds became available in March 2009. Yet, despite the availability of
MET travel funds, field divisions initiated only 2 of 6 deployments more than
50 miles from the division office. Four deployments were initiated prior to
the availability of the travel funding. Division offices made only one FY 2009
deployment to an area outside of its immediate metropolitan
area – Montgomery County, Texas – where methamphetamine was the
focus. The Dallas Division received a request from another rural law
enforcement agency, but that request was not considered because

       18
           When assigned to work more than 50 miles from their duty station, DEA staff
receive reimbursement for travel costs such as lodging, meals, and incidental expenses.
An April 2008 teletype to DEA field offices stated that METs may still engage in deployments
requiring overnight travel, but DEA headquarters would not provide MET funding for those
costs.

                                            19 

headquarters did not notify divisions until March 2009 that MET funds could
be used for travel.

      Travel funding was available for FY 2010, but division offices initiated
only two of the six deployments more than 50 miles from the division office,
and neither deployment focused on methamphetamine.

       The DEA’s Assistant Administrator, Chief of Operations, told us that
the 2008 funding was insufficient to reinstate the program to its previous
staffing levels and strength, and DEA headquarters and field division
managers had to choose between maximizing the number of divisions that
could operate a MET or establishing METs in fewer divisions and enable
travel for METs to address drug trafficking problems across a division’s
territory. The Assistant Administrator said that the managers knew from
prior program experience that each MET required a minimum of eight
Special Agents to ensure security, safety, and effectiveness. The managers
also knew that several field divisions had experienced significant spikes in
violent crime and that local law enforcement agencies in the immediate
vicinity of the DEA field divisions needed assistance in coping with that
crime. He said that these factors led to the decision that the restarted METs
could achieve maximum effect by operating in 10 field divisions – each
located in proximity to a known violent crime problem.

       Therefore, in restarting the MET program the DEA focused on crime in
the immediate geographic areas of division offices. Yet, while these
deployments addressed significant law enforcement problems, the teams
were not mobile and were not available to travel anywhere within the
division’s jurisdiction, as envisioned in the program’s design. Since FY 2008,
the DEA’s METs mainly deployed to areas close to their field divisions and
typically did not employ their “mobile” capacity to support rurally located law
enforcement agencies.

Deployment Selection Process

      We also found that the DEA does not have a standardized process for
choosing between multiple requests for MET assistance. Five divisions
received several requests for MET assistance while its METs were already
deployed elsewhere. Exhibit 6 shows the deployment and the additional
requests for MET assistance. The requestor in bolded text was selected by
the division as its next MET deployment.




                                      20 

                                   Exhibit 6: 

              Divisions with Multiple Requests for MET Assistance

                                              Requests for Additional              Request
Division       Current Deployment
                                                  Deployments                       Date
               Chicago, IL Police          Racine, WI PD                             7/22/2009
Chicago        Department (PD)             Chicago Heights, IL PD                    10/7/2009
               (Englewood)
                                           Los Angeles, CA PD (Hollywood)             4/1/2009
                                           Santa Maria, CA PD                         2/5/2009
               Los Angeles, CA PD          Long Beach, CA PD                          7/7/2009
               (Hollenbeck)                Los Angeles, CA Sheriff’s Office          8/19/2009
                                           (SO) (Antelope Valley)
Los
                                           Reno, NV Regional Gang Unit               8/19/2009
Angeles
                                           Los Angeles, CA PD                         4/1/2009
                                           (Hollywood)
               Los Angeles, CA SO          Santa Maria, CA PD                         2/5/2009
               (Antelope Valley)           Long Beach, CA PD                          7/7/2009
                                           Reno, NV Regional Gang Unit               8/19/2009
                                           Kauai, HI PD                              11/3/2009
                                           Broward County SO (Pompano                4/20/2009
                                           Beach)
               Fort Lauderdale, FL PD
                                           Coral Springs, FL PD                      5/27/2009
                                           Miami, FL PD (Allapattah)                  6/2/2009
Miami                                      Broward County SO (Pompano                4/20/2009
                                           Beach)
               Coral Spring, FL PD         Miami, FL PD (Allapattah)                 6/2/2009
                                           Fort Pierce, FL PD                        7/9/2009
                                           Titusville, FL PD                        7/28/2009
                                           Casa Grande, AZ PD                       6/24/2009
Phoenix        Not Applicable19
                                           Wickenburg, AZ PD                        8/18/2009
                                           Escondido, CA PD                        12/14/2009
San Diego      San Diego, CA PD
                                           Oceanside, CA PD                        12/30/2009
Source: DEA MET Divisions

       We determined that the basis for selecting deployments varied among
the five divisions. The Chicago and Phoenix Divisions deployed to Chicago
Heights and Casa Grande because the local law enforcement agencies’
requests had better-defined targets than did other requesting law
enforcement agencies. The Miami Division deployed its MET to Coral Springs
during FY 2009 because Division staff had personal knowledge of the
problem in that area. The Miami Division also deployed to Allapattah
because not all MET agents were able to travel due to other work
obligations, such as pending adjudication of defendants from past
deployment operations, temporary duty assignments and the need to assist
        19
             The Phoenix Division received two requests prior to its first deployment.

                                                21 

the Division in a long-term security detail concerning a high-priority drug
trafficking organization investigation.

      The Los Angeles and San Diego Divisions deployed to Hollywood and
Escondido during FY 2010 because the requesting local law enforcement
agencies had not previously received MET assistance, and the other
requesting agencies had previously received such assistance. The
Los Angeles Division planned to deploy to Antelope Valley during FY 2010
rather than in one of four other requested locations because Los Angeles
Division managers believed that the deployment to Antelope Valley provided
a good training exercise for new MET agents. In addition, that deployment
permitted the agents to return to their office 1 day per week for paperwork
and remain at home on the weekends.

       It appears that when deciding where to deploy METs, DEA field
divisions made decisions based on factors other than a comparison of the
needs of potential MET deployment locations. We believe that considering
the quality of the proposed target provides a more reasonable approach to
determining the location of a deployment than some of DEA field division’s
considerations discussed above.

      The program guidance provided by the DEA to its field divisions does
not clearly specify how to choose between multiple requests for a
deployment. The MET Program Handbook provides only that the divisions
document the requesting agency’s need on an Assessment Checklist, but the
handbook does not address how to identify, from among several requests,
the requesting agency with the greatest need.

       At DEA headquarters, the Office of Global Enforcement, Regional and
Local Impact Section, is the DEA program office that oversees the MET
program. When field division managers decide on a MET deployment
location, they provide the Regional and Local Impact Section a copy of the
request for deployment and their assessment of the request. However, the
field division does not provide this information for all of the requests
received, and it does not forward to headquarters an explanation of the
factors weighed in selecting between possible deployments. The field
division also does not always provide documentation substantiating the local
law enforcement’s lack of personnel, financial and technical resources, or
support for reported violent crime.

     Upon receipt of a field division’s request to begin a deployment,
Regional and Local Impact Section staff review the documents for
completeness. If Section staff believes the documentation requires revision,
                                      22 

they notify the division of the needed revisions. The division then submits a
revised assessment and request for deployment. After review of the
requests and assessments, the Deputy Chief of Operations at the Office of
Enforcement approves the deployment.

       We reviewed the handling of 27 deployment requests received by the
Regional and Local Impact Section since the MET program restarted in 2008.
The Section approved each request it received. Based on our review of
deployment requests and the selection process, we concluded that the
Regional and Local Impact Section has limited involvement in and oversight
of the selection process. The Section does not know the extent of all
requests each division receives and does not always receive documentation
substantiating the need noted in the assessment checklists. Moreover, a
Section official told us that the Section does not question the decision of a
division’s Special Agent in Charge regarding a MET deployment on the
assumption that field division managers best know the needs within their
division.

      DEA officials disagreed with our conclusions about the deployment
selection process. DEA headquarters officials told us that Special Agents in
Charge consider many factors when deciding where to deploy a MET and
know how best to use MET resources.

       However, we believe the value of MET deployments could be increased
through more active oversight by the Regional and Local Impact Section in
the deployment selection process. The Section could help ensure that
divisions are selecting deployments based on standard, objective criteria,
rather than the varied, sometimes non-operations-based considerations
described earlier, such as deciding to deploy to a particular location because
of the training and travel needs of the DEA staff. The Section could develop
and issue guidance on how to select among competing requests for
deployment. We believe that the guidance should specify which factors
should and should not be considered in selecting a MET deployment.

MET Outreach

       We also surveyed the 14 DEA field divisions with a MET and asked how
they notified local law enforcement agencies of the MET program’s
availability. Two divisions – Los Angeles and Phoenix – sent letters and
information packets to local law enforcement agencies within their
jurisdiction announcing the MET’s availability as well as instructions for
making MET requests. The remaining 12 divisions reported that DEA

                                      23 

personnel in their divisions met or communicated with local law enforcement
agencies within their divisions.

       However, from the beginning of FY 1999 through June 2007, the
21 divisions with a MET received 2.2 requests for MET assistance annually,
on average. Since the restart of the MET program in May 2008, through
January 2010, the 14 divisions with a MET received an average of
2.1 requests annually, which represents a 5 percent decrease under the
restarted program. These 14 DEA divisions with a MET cover an area of
31 states with almost 11,000 law enforcement agencies. All 14 divisions we
surveyed reported that they had conducted outreach efforts after May 2008,
including routinely promoting the program to state and local counterparts,
using personal contacts and word of mouth, and briefing Chiefs of Police and
local Sheriffs. For example, the Dallas Division reported that it met with
over 50 local area Chiefs of Police. The Houston Division reported that it
contacted all state, local, and other federal agencies in its geographic area to
inform them of the restart of the MET program and its mission. At the
St. Louis Division, the Special Agent in Charge told us he had only one MET
and did not want to offer MET services that he could not provide. However,
the Division’s written response to our survey questionnaire stated that it had
outlined the MET program to nearly all Chiefs of Police and Sheriffs in its
region.

       We could not determine the reasons for the moderate decrease in
requests for MET assistance since the program restarted, but we believe that
the DEA could increase the number of requests by increasing its outreach
efforts to state and local law enforcement agencies. DEA officials told us
that given the program’s limited resources any “advertising” of its
availability would falsely raise expectations about the assistance that METs
can be provide. Nevertheless, we believe the DEA should ensure that law
enforcement agencies in their jurisdictions know of the MET program and its
capability. Consequently, we recommend that the DEA better ensure that
local law enforcement agencies across DEA divisions’ territories know that
the MET program is available to provide assistance. Specifically, the DEA
should more systemically and widely announce the availability of the
program to local law enforcement agencies and track its outreach efforts.
This outreach should also be used to help the DEA identify areas to target
through the program.

Conclusion

     When Congress provided funding to restart the MET program in
FY 2008, its comments on the program stated that MET operations were to
                                      24 

focus on “methamphetamine and other dangerous drugs.” Since the MET
program restarted in April 2008, 7 (26 percent) of 27 initiated MET
deployments focused primarily on methamphetamine. DEA officials believe
this level of methamphetamine enforcement operations is sufficient to meet
Congress’ intent for the program. The DEA also believes it adequately
informed Congress that it planned to use METs to attack violent gangs
involved in trafficking other types of drugs.

       We found that METs were not mobile. When the DEA restarted the
MET program in FY 2008, it prohibited METs from using the appropriated
funds for travel expenses. In 2009, the DEA made travel optional, but did
not notify divisions about this until March 2009. Consequently, one division
denied a request it received earlier that year for a deployment to a rural
area. Because of the travel expense issues and the DEA’s decision to focus
on violent gangs operating in metropolitan and suburban areas, rural law
enforcement agencies did not have the benefit of using MET resources to
address either methamphetamine or gang problems within their
jurisdictions. For 26 of 27 deployments we reviewed, the MET target area
was an average of 20 miles from the division office. One deployment was
about 350 miles from the division office, and the remaining deployments
ranged from 0.3 miles to 79 miles from the division office.

       We also concluded that the DEA needs to establish a standardized
process for reviewing and selecting from competing requests for MET
assistance, and it needs to ensure that divisions conduct adequate outreach
activities. Divisions with a MET told us they conducted broad outreach
efforts, but did not provide records of their contacts and meetings. We
found that before FY 2008, divisions received 2.2 requests for MET
assistance annually, on average. Since FY 2008, divisions received an
average of 2.1 requests annually.

Recommendations

We recommend that the DEA:

1. Consider whether more of its MET resources should be used to combat
   methamphetamine trafficking, consider whether METs should be more
   mobile, update the MET Program Handbook to reflect the current focus of
   the program, and provide relevant guidance to its field divisions.

2. Establish a standardized process for reviewing and selecting from
   competing requests for MET assistance.

                                     25 

3. Ensure that divisions conduct adequate outreach activities to inform local
   law enforcement agencies about the availability of MET resources.




                                     26 

II.	   THE DEA’s ASSESSMENT OF THE SUCCESS OF MET
       DEPLOYMENTS

       Our review found that METs have made many arrests and
       seized drugs and other property to disrupt or dismantle drug
       trafficking organizations and to reduce violence and the
       availability of drugs. However, the DEA’s measurement of
       the results of the MET program is inconsistent. After each
       MET deployment, DEA field Divisions are required complete
       and submit to headquarters a written assessment on drug
       sales and crime rates in the target area and community
       reaction to the MET operation. However, we determined
       that field divisions did not complete or were slow in
       completing the required reports. Additionally, field divisions
       sometimes used the wrong data to evaluate pre- and post-
       deployment crime rates in the target area. The MET
       Program Handbook states that the DEA should also assess
       whether MET operations had a lasting impact on the target
       area. However, some post-deployment reports showed an
       increase in certain crimes after a MET operation had ended.

The DEA’s System for Evaluating MET Operations

       Before the DEA begins a MET operation, it collects pre-deployment
crime statistics for the target area to establish a baseline. While the MET
operation is ongoing, METs submit bi-weekly and monthly progress reports
that include statistics on arrests, seizures, and how many drug trafficking
organizations were disrupted or dismantled. At the conclusion of
enforcement operations, METs submit an immediate post-deployment report
on overall results of the operation. Six months after a deployment has
ended, METs submit a Six-Month Post-Deployment Assessment Report,
which includes statistics on arrests, seizures, and drug trafficking
organizations that were disrupted or dismantled. The reports also include
pre- and post-deployment crime rates, observed changes in the supply of
drugs, and community reactions to the MET operation. The MET Program
Handbook states that the purpose of these assessments is to determine
whether MET operations had a lasting impact on the target area.

     We reviewed MET performance to determine whether the MET program
was achieving its goals and objectives.




                                       27 

Results of MET Operations

      We found that the METs made many arrests and seizures to disrupt or
dismantle drug trafficking organizations in efforts to reduce violence and the
availability of drugs. However, the DEA has not demonstrated that MET
operations had a lasting impact on the key program goal of disrupting and
dismantling drug trafficking in efforts to reduce drug availability and related
violence.

Arrests and Seizures

      To assess the number of arrests and seizures from MET operations we
obtained documentation for all MET operations from the restart of the
program in May 2008 through January 2010. For that period, we
summarized arrests and seizures for all ongoing and completed
deployments, regardless of whether a post-deployment report had been
completed.

     Arrests – Exhibit 8 shows aggregate arrests by division for all 27 MET
deployments initiated from May 2008 through January 2010.

              Exhibit 8: Reported Arrests from MET Operations

                       May 2008 through January 2010 

                               Division               Arrests20
                         Atlanta                         12
                         Chicago                         50
                         Dallas                          66
                         Detroit                         61
                         El Paso                          0
                         Houston                        186
                         Los Angeles                    239
                         Miami                          129
                         New Jersey                     127
                         Philadelphia                    71
                         Phoenix                         10
                         San Diego                      266
                         St. Louis                       72
                         Washington                     281
                                     Totals            1,570
                        Source: DEA Field Divisions with a MET


       20
           The Atlanta and El Paso Divisions started their first deployments in January 2010.
The Phoenix Division started its first deployment in September 2009. Since these divisions
recently started their first deployments, their arrest statistics are lower than other divisions.
The Phoenix MET recently had a takedown in March 2010, where it made several arrests.

                                               28 

      Persons arrested include targeted gang members, leaders, and their
drug suppliers. Of the 1,570 persons arrested during MET operations,
340 were convicted. As of January 31, 2010, prosecution was still pending
for 1,230 arrestees.

       For each deployment, a case agent must complete a defendant
statistical form for each arrest, guilty plea, conviction, dismissal, or
acquittal. One of these forms should be completed and submitted prior to
the official closing of a DEA case file. However, criminal proceedings
resulting from MET deployments may take years to complete and most case
agents do not prepare the statistical report until the proceedings are
completed. Consequently, the DEA does not report the results of criminal
proceedings as part of its measures for the MET program. The DEA should
ensure it completes and reviews the results of each defendant statistical
form. Without this information, the DEA cannot accurately gauge significant
trends, such as whether an unusually high number of its arrests are
resulting in pre-trial dismissals by prosecutors. DEA officials told us that if
there were a problem with an investigation that resulted in a high number of
dismissals, the U.S. Attorney’s Office would let them know. Yet, we believe
that tracking dismissals and the reasons for the dismissal could provide
information that will help the DEA improve its operations.

       Drug and Non-Drug Seizures – Exhibit 9 shows drug seizures by
division for all 27 MET deployments initiated from May 2008 through
January 2010.




                                      29 

                                   Exhibit 9: 

            Reported Grams of Drugs Seized During MET Operations

                      May 2008 through January 201021

                                                                  Metham-
   Division     Cocaine     Crack        Heroin     Marijuana
                                                                 phetamine22
Atlanta             -         415.00          2.00      -             906.00
Chicago             -           38.00    1,665.70      2,037.90       -
Dallas             623.00   4,248.90        59.00         410.00       31.10
Detroit          4,380.20   1,367.20      2522.10  1,064,486.20       -
El Paso             -          -            -           -             -
Houston        12,077.91       -         1,033.70    318,918.33    17,527.00
Los Angeles    12,626.60    1,848.70       238.10         207.10   10,669.30
Miami            1,542.00   1,690.00        10.00      9,516.00       -
New Jersey       3,202.00      -         3,657.10         289.90      -
Philadelphia       651.60      -            21.40       -             -
Phoenix            133.00       38.50       -          4,116.00       361.20
San Diego        8,192.00   3,789.00        -         14,203.00     2,446.00
St. Louis        2,636.00   4,049.70     1,890.90      1,473.50        88.00
Washington       3,897.00   1,474.00       288.50     58,383.60       -
      Totals 49,961.31 18,959.00 11,388.50 1,474,041.53 32,028.60
Source: DEA Field Divisions with a MET

         Exhibit 10 shows non-drug seizures by division for all 27 deployments
    from May 2008 through January 2010.




           21
               The Atlanta and El Paso Divisions started their first deployments in January 2010.
    Since these divisions recently started their first deployments, their seizure statistics are
    significantly lower than other divisions. Divisions also seized various amounts of other
    drugs.
           22
                The methamphetamine seizures resulted from deployments in seven field
    divisions. Seven of 27 deployments included methamphetamine as a primary focus. Four
    field divisions seized methamphetamine during seven methamphetamine-focused
    deployments. Three field divisions seized small amounts of methamphetamine during non-
    methamphetamine focused deployments.

                                                 30 

                             Exhibit 10: 

       Reported Non-Drug Property Seized During MET Operations 

                   May 2008 through January 2010 

                                            Vehicles
   Division      Cash      Property                         Firearms
                                      Number      Value
Atlanta            $3,200      -         1           $5,500     5
Chicago          $139,201    $3,000      1         $28,712      2
Dallas             -       $200,000      1           $7,675     13
Detroit          $301,291    $4,880     13        $111,845      8
El Paso            -           -          -          -           -
Houston          $328,412      -        23        $789,140      31
Los Angeles       $80,008      -         5         $99,575      39
Miami             $89,768      -        22        $268,414      33
New Jersey       $115,690     $2,460     6         $54,288      18
Philadelphia      $93,656      -         1           $7,400      -
Phoenix            -           -          -          -           -
San Diego        $106,170      -          -          -          60
St. Louis        $191,563  $224,950      9        $310,500      33
Washington       $316,739  $119,000      3         $46,000      55
       Totals $1,765,698 $554,290       85    $1,729,049       297
Source: DEA Field Divisions with a MET

     The number of arrests and seizures show that MET operations have
helped local law enforcement achieve results against drug trafficking
organizations.23

Disruptions and Dismantlements

       The DEA also measures the effect that DEA MET operations had on
criminal activities, criminal organizations, and the community affected by the
crime. One method the MET program uses to assess the outcome of
program operations is to track the disruption and dismantlement of drug
trafficking organizations. The disruptions and dismantlements resulted from
the arrests of gang members, leaders, and their sources of supply.
Exhibit 11 shows the MET program is making progress at achieving program
objectives to disrupt and dismantle drug trafficking organizations.

       23
          Four divisions’ MET operations began more than a year after the initial 10 METs
began operations. Two of those four divisions – Atlanta and El Paso – began their first
deployments in January 2010. As a result, those divisions had fewer reported arrests and
seizures than the other divisions. Also, the focus of the deployment usually determines the
type and amount of drugs seized. For example, the Atlanta, Houston, Los Angeles, and
San Diego Divisions had MET operations that focused on methamphetamine trafficking.
Those MET deployments resulted in large quantities of methamphetamine seizures.
                                            31 

                                  Exhibit 11: 

            Drug Trafficking Organizations Disrupted or Dismantled 

             by MET Operations - May 2008 through January 2010 

                   Division       Disrupted        Dismantled
                      24
              Atlanta                  -                -
              Chicago                  3                3
              Dallas                   3                3
              Detroit                  1                -
              El Paso                  -                -
              Houston                  3                -
              Los Angeles              2                -
              Miami                   24               24
              New Jersey               2                2
              Philadelphia             2                0
              Phoenix                  -                -
              San Diego               12                4
              St. Louis               40               18
              Washington               -                4
                         Totals       92               58
              Source: DEA Divisions with a MET

       We found large disparities in the number of disruptions and
dismantlements among divisions. Specifically, the number of disruptions
and dismantlements reported by the Miami and St. Louis Divisions were
significantly higher than the other divisions. The DEA headquarters MET
program manager told us that the differences in the numbers reported by
the Miami and St. Louis Field Divisions probably resulted from the
interpretation of definitions. He said that while the DEA headquarters, field
divisions, and individual groups use the same definitions of “disruption” and
“dismantlement”, these definitions may be applied differently for each
investigation.

      The DEA headquarters MET program manager also told us that the
St. Louis division erroneously reported search warrants and arrest warrants
as disruptions and dismantlements. The St. Louis MET Group Supervisor
agreed that the reported numbers should be corrected. The DEA


       24
          Staff of the Atlanta and El Paso Divisions told us that their first deployments were
in January 2010. Because the reporting period for our audit ended when these deployments
were only weeks old, the amounts of disruptions and dismantlements were significantly
lower. As of January 31, 2010, the Phoenix MET had no statistics to report.

                                             32 

headquarters MET program manager also told us that the Miami division MET
may have similarly interpreted the definitions of “disruption” and
“dismantlement” in a manner inconsistent from other MET teams.

      MET program managers told us they would discuss this and other
issues at a training session for MET supervisors, which is scheduled for
September 2010, to ensure consistent reporting among field divisions.

Six-Month Post-Deployment Assessment Reports

     As discussed earlier, divisions are required to assess the results of
each MET deployment 6 months after the deployment has ended. However,
DEA divisions did not always conduct a complete, timely, and objective
assessment of each MET operation.

Completed Reports

     Of the 27 MET deployments initiated from May 2008 through
January 2010, 13 were completed and 14 were still ongoing as of
January 31, 2010. Nine of the 13 completed deployments required a
Six-Month Post-Deployment Report as of January 31, 2010.25

       The DEA has no written policy for how quickly Six-Month
Post Deployment Reports should be submitted once the 6-month post-
deployment period ended. We considered the report was timely if it was
submitted within 7 months after the deployment ended. Of the nine
required reports, two were submitted timely and six were submitted from
15 to 121 days late. As of July 7, 2010, one other report, which was for a
MET deployment by the New Jersey Division, was not submitted and was
27 days late.26 Moreover, four of the six late reports were not submitted
until we requested the reports from the DEA.

      25
          The other four deployments did not require a post-assessment because it had
been less than 6 months since those deployments ended.
      26
           The deployment ended January 16, 2009. Based on our definition of timeliness,
which is 7 months after a deployment ends, the post-deployment assessment report was
due August 14, 2009. A DEA official told us that the missing report from the New Jersey
Division was due to unique circumstances. The Newark deployment started in late 2008
and ended in early February of 2009. A change in the MET Group Supervisor occurred near
the end of the deployment. The new supervisor was unfamiliar with the DEA paperwork
related to MET and inadvertently never completed the report. This problem was
compounded by staff shortages within Regional and Local Impact Section Staff and changes
in Section staff that caused the missing New Jersey report to be overlooked.

                                           33 

      While the DEA does not have an established written policy prescribing
how soon each division should submit the Six-Month Post-Deployment
reports, the Chief of the Regional and Local Impact Section told us that the
DEA informally established that the Six-Month Post-Deployment Reports are
due 6 months from the date of the conclusion of each deployment.27 If a
post-deployment report is not provided timely, a Section staff coordinator is
supposed to contact the responsible MET supervisor and request the report.
The Chief told us that reports may be delayed for reasons ranging from staff
leave, changes in MET personnel, new deployment responsibilities, changes
in supervisors, inspection responsibilities, or other circumstances.

      During our testing, we noted that METs opened multiple investigative
cases in different geographic areas during a single deployment. For
example, the St. Louis Division began a MET deployment in May 2008 and
opened three investigative cases in different parts of the city. The team
completed operations for the first case, but it did not conduct a Six-Month
Post-Deployment assessment. As of January 2010, operations for the two
remaining investigative cases were still ongoing. The Houston, Detroit, and
Washington Divisions also opened multiple investigative cases during the
same MET deployment and did not complete, or did not timely complete,
post-deployment assessments.

       Delaying the post-deployment assessment process makes it difficult to
conduct an objective evaluation of the results. In addition, because of
reporting delays, changes in crime rates may not be correlated to MET
operations. Division managers told us that deployments are taking longer to
complete because the METs are targeting drug dealers and their sources of
supply. Nevertheless, the length of a deployment should not affect the field
division’s timely completion of a Six-Month Post-Deployment assessment for
each target area or investigative case.

      We reviewed each of the eight completed Six-Month Post-Deployment
Reports that the DEA used to measure the impact of MET operations. The
assessments included two deployments from the Los Angeles Division, two
from the Miami Division, two from the San Diego Division, one from the
Dallas Division, and one from the Philadelphia Division.

       27
           These reports are to include statistics for the 6-month period after MET operations
have ended. However, having the reports due 6 months from the conclusion of each
deployment does not give METs adequate time to prepare and submit the reports. During
our audit testing, we considered that a report was submitted timely if it was submitted
within 7 months after MET operations had ended.

                                             34 

      We found that for one post-deployment assessment, METs used pre-
and post-deployment crime statistics for a geographic area that is much
larger than the target area for the MET. Consequently, changes in crime
rates are less likely to be correlated to MET operations. We recommend that
the DEA base pre- and post-assessments on crime statistics for the defined
target area.

        According to the MET Program Handbook, each Six-Month
Post-Deployment Report also contained a section explaining how citizens of
the community reacted to the deployment and what the local community is
doing to reduce crime. In general, the reports indicated that citizens had
positive comments about MET operations. However, the reports provided
little information about what the local community is doing to reduce crime.

      Moreover, each report should include the local law enforcement
agency’s assessment of the deployment. However, for 6 of 8 assessments
we reviewed, the field division provided its own assessment rather than that
of the local law enforcement agency. Two divisions prepared nearly identical
assessments for two different deployments within each division, indicating
that one assessment had been copied from the prior assessment.

      A more detailed assessment of the following sections of completed
post-deployment reports is presented in Appendix II and III.

  	 Synopsis of the Deployment (see Appendix II)

  	 Reduction in Drug Sales or Visible Drug Sales (see Appendix II)

  	 Community Reaction and Involvement (see Appendix II)

  	 Agency Assessment (see Appendix II)

  	 Stability of the Target Area (see Appendix III). This section of the
     post-deployment reports shows pre- and post-deployment crime
     statistics.

Conclusion

       The MET program reported large numbers of arrests, convictions, and
seizures leading to the disruption and dismantlement of targeted drug
trafficking organizations. However, the DEA needs to make several
improvements in its system for evaluating the success of MET operations.
                                     35 

      The MET program requires agents to assess the performance of each
MET operation to determine whether the operation had a lasting impact on
the community. Part of the assessment includes evaluating crime statistics
for the target area before and after each MET operation and documenting
the results in Six-Month Post-Deployment reports.

       However, the DEA had no written policy stating how quickly Six-Month
Post-Deployment reports had to be completed and most reports were
submitted late, including four late reports that were not submitted until we
requested them from the division.28 Consequently, the DEA did not timely
assess whether MET operations had a lasting impact on the community. The
post-deployment assessment reports are a valuable tool for the DEA to use
in examining the successes and failures of MET deployments. We believe
that it is important that reports be completed in a thorough, accurate, and
timely manner to assist the DEA in identifying best practices and
determining areas needing improvement.

Recommendations

We recommend that the DEA:

4. Ensure that Six-Month Post-Deployment Reports include the outcome of
   each arrest, including dismissals and reasons for the dismissals, and use
   that information to improve MET operations.

5. Define a timeframe for submitting completed Six-Month Post-Deployment
   Reports and ensure those reports are completed and submitted timely for
   each defined target area.

6. Ensure that pre- and post-deployment crime statistics used to measure
   changes in crime rates are for the target area of the MET operation.




       28
         We considered that a report was late if it was not submitted within 7 months after
a deployment had ended.

                                            36 

                STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the DEA’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. DEA management is responsible for the establishment
and maintenance of internal controls.

       Through our audit testing, we did not identify any deficiencies in the
DEA’s internal controls that are significant within the context of the audit
objectives and based upon the audit work performed that we believe would
affect the DEA’s ability to effectively and efficiently operate, to correctly
state financial and performance information, and to ensure compliance with
laws and regulations.

       Because we are not expressing an opinion on the DEA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the DEA. This restriction is not intended to limit the
distribution of this report, which is a matter of public record. However, we
are limiting the distribution of this report because it contains sensitive
information that must be controlled appropriately.29




       29
           A redacted copy of this report with sensitive information removed will be made
available publicly.

                                            37 

               STATEMENT ON COMPLIANCE WITH 

                   LAWS AND REGULATIONS 


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
DEA’s management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. The DEA’s management is responsible for ensuring compliance
with applicable federal laws and regulations. In planning our audit, we
identified the following laws and regulations that concerned the operations of
the DEA and that were significant within the context of the audit objectives:

        FY 2008 Consolidated Appropriations Act
        FY 2009 Consolidated Omnibus Appropriations Act
        DEA MET Program Handbook

       Our audit included examining, on a test basis, the DEA’s compliance
with the aforementioned laws and regulations that could have a material
effect on the DEA’s operations, through interviewing personnel, analyzing
data, assessing internal control procedures, and examining procedural
practices. Except for instances of noncompliance identified in the Finding
and Recommendations section of this report, we did not identify any other
instances of noncompliance with the guidelines contained in the MET
Program Handbook.




                                     38 

                                                                  APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

     The objectives of this audit are to assess the design and
implementation of the MET program, and evaluate the success of MET
deployments.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. We performed fieldwork at the following locations.

     DEA Headquarters                       Arlington, Virginia
     Atlanta Division Office                Atlanta, Georgia
     St. Louis Division Office              St. Louis, Missouri

      To determine whether the DEA properly designed and implemented the
MET program, we identified and evaluated the policies established by the
Congress and the DEA and reviewed MET deployment operations. During
the initial phase of our audit, we reviewed all 27 MET deployment files since
May 2008, located at the DEA’s Headquarters and the Atlanta and St. Louis
Division Offices. These files included requests for deployments,
pre-deployment assessments, and deployment reports.

      At each field office we visited, we interviewed DEA officials and
reviewed documentation from MET deployment files. We also obtained and
reviewed MET data and information from all DEA field divisions with a MET.




                                     39 

                                                             APPENDIX II

DETAILS OF SIX-MONTH POST-DEPLOYMENT ASSESSMENTS

Synopsis of the Deployment

      All Six-Month Post-Deployment Reports showed that METs helped local
law enforcement agencies address gang and drug problems. Reports
included data on arrests, seizures and the length of the operation. For
example, the Los Angeles Division reported that it assisted the Pasadena
Police Department for 8 months to target a specific street gang involved in
drug trafficking and violent crime. The deployment resulted in 50 arrests
(12 federal and 38 state) and the seizure of 1,170 grams of cocaine,
320 grams of crack, 12 grams of marijuana, 770 grams of Ecstasy, and
4,563 grams of methamphetamine. Law enforcement officers also seized
1 vehicle, 10 firearms, and $18,628 in U.S. currency.

      Some divisions also reported the number of organizations disrupted
and dismantled and that they had identified gang leaders, gang associates,
and the primary source of supply for several drugs.

Reduction in Drug Sales or Visible Drug Sales

       Changes in the supply and sale, or visible sale, of drugs is based
primarily on testimonial evidence from DEA agents, local law enforcement
officers, arrested gang members, and confidential sources. Reports from the
Los Angeles and Miami Divisions state that local law enforcement personnel
stated that visible drug sales diminished. The Los Angeles Division reported
that agencies it assisted received fewer calls from citizens requesting
assistance. The San Diego Division relied on the testimony of a person it
arrested as evidence that there are no drugs available in the area of the
deployment. The Philadelphia Division reported that drug trafficking will
continue due to the high demand in the targeted area. The Dallas Division
reported that traffickers just moved to a different area of town.

     The Miami Division Office reports regarding reduction in drug sales
were nearly identical for its Opa-Locka and Fort Lauderdale deployments.
The Opa-Locka report contained the following:

     The aggressive enforcement initiative led to an evident reduction in
     visible drug sales and a cycle wherein drug availability had clearly
     diminished in the target area. Furthermore, agents and local
     investigators also relied on a variety of Confidential Source reporting
                                      40 

      that contributed to the inference that drug availability in the target
      area had diminished during the surge in enforcement operations.

     The Fort Lauderdale report contained the identical wording along with
many other statements identical to those made in the Opa-Locka report.

      Our concern is that this type of reporting does not demonstrate that
MET personnel did an individual analysis of each deployment. We asked the
Section Chief of Regional and Local Impact Section if his office detected that
the reports were identical and what the Section did to address it. The Chief
did note the similar wording of the reports. He said this is not uncommon
and occurs because some of the same basic facts existed or that the author
has used “tried and true” language to complete the documents. In this case,
the Section said that while the wording utilized in both reports is similar, it
nonetheless finds the facts to be accurate and the reporting satisfactory.

Stability of the Target Area

      The charts contained in Appendix III provide violent crime statistics
before and after MET deployments. As shown in the charts, crime rates
sometimes increased, as did robbery and sexual assault for the Los Angeles
Division’s Hollenbeck deployment. Only the Opa-Locka deployment resulted
in a decrease in all four types of violent crime that the METs report. The
San Diego Division did not report on all four types of violent crime required
in Six-Month Post-Deployment Report and instead reported only gang-
related crime. The Division attributed a rise in homicides to on-going
violence between rival gangs.

      For the Fort Worth MET deployment, the pre- and post-deployment
crime statistics presented in Appendix III are for an area larger than the
area of the MET operation. This occurred because the Dallas Division
reported crime statistics for the entire City of Fort Worth rather than just the
target area. For this deployment, changes in crime rates cannot be
attributed solely to the MET operations.

       The DEA needs to ensure it bases pre- and post-assessments on crime
statistics for the target area. In addition, because four deployments are
more than a year and a half old, some post-deployment reviews would
compare post-deployment violent crime statistics to pre-deployment
statistics from 2 years prior. Many other factors such as population change
or economic climate may affect a community in 2 years. Consequently, it
could be difficult to attribute change in violent crime to the deployment.

                                      41 

Community Reaction and Involvement

      This section of the post-deployment report assesses community
reaction to the deployment and what the community is doing to prevent
crime. Below are examples of community reactions and involvement
reported in Six-Month Post-Deployment Reports.30

   	 The Hollenbeck Division of the Los Angeles Police Department reported
      that it had “received many calls from citizens thanking the LAPD for
      making arrests in areas that drug traffickers and users frequented.”

   	 The Los Angeles and Philadelphia Divisions reported there was no
      community reaction and involvement information to report for the
      Pasadena and Philadelphia deployments.

   	 Residents of the Cities of Opa-Locka and Fort Lauderdale, Florida,
      often voice their concerns over illicit drug sales and related crime.
      Since the deployments have ended, the Opa-Locka Police Department
      and the Fort Lauderdale communities have “remained vigilant in efforts
      to thwart the re-emergence of drug activity in an effort to avoid the
      detrimental impact to the citizens and businesses.”

   	 Citizens of San Diego and Oceanside have approached MET members
      to express gratification.

   	 The San Diego Police Department hosted a community event and
      invited community members and activists to attend. Known gang
      members “who were not arrested were required to attend” the event.

   	 At an annual recognition luncheon in Oceanside, California, members
      of the MET were honored for making a positive contribution by
      removing drugs from Oceanside.

   	 The DEA office in Fort Worth, Texas, had positive conversations with
      residents and City officials.

       Although DEA reports that citizens had positive comments about MET
operations, post-deployment reports contained little information about what
the community was doing to prevent crime. As a result, the DEA did not
fully address the element. We understand that the communities that the
      30
          The post-deployment reports for the Philadelphia and Pasadena deployments did
not contain information on community reaction and involvement.

                                          42 

METs assisted were grateful, but the DEA should document what the
community has done to address drug trafficking so that MET assistance
would no longer be necessary.

Agency Assessment

       The Six-Month Post-Deployment Report also includes the local law
enforcement agencies’ assessment of the DEA as it relates to the impact of
the MET operation. Agency results can include the number of drug
trafficking organizations disrupted or dismantled, the overall effectiveness of
investigative techniques, and overall cooperation among federal, state, and
local counterparts.

      The Agency Assessment section did not always contain the local law
enforcement agency’s assessment of the MET operation. Instead, the
reports contained the DEA’s assessment of the deployment results. Our
review found that the Los Angeles Division completed two deployments, but
the Agency Assessment sections of both Six-Month Post-Deployment Reports
were prepared by the Division staff and were nearly identical. The Miami
Division staff also prepared two Six-Month Post-Deployment Reports with
Agency Assessment sections that were nearly identical. The two divisions
assisted different law enforcement agencies for each deployment, so results
should be unique. In our judgment, such reporting does not demonstrate
that an individual analysis was done of each deployment. However, the
Chief for the Regional and Local Impact Section told us that the reports
properly convey the facts and circumstances associated with each
deployment. The Chief said that each deployment report was authored by a
seasoned MET supervisory special agent, and that re-wording the reports
from deployment to deployment for the sake of individualizing reports is not
a requirement.

      The San Diego Division reported that the Oceanside, California,
deployment was successful. The report stated that the deployments
resulted in arrests, seizures, and disruptions and that the MET had achieved
its goals and developed a strong relationship with local law enforcement.
The San Diego Division completed this assessment of the Oceanside
deployment on November 4, 2009. However, about a month later, on
December 17, 2009, the Oceanside Police Department submitted another
request for a MET deployment to target the same trafficking organization in
Oceanside.

      The Philadelphia Division reported that because of MET operations,
reports of violence had declined. A Philadelphia Police Department
                                      43 

Sergeant, who worked with the MET during the deployment, explained that
despite many arrests, the deployment did not make a major impact on the
target area. The DEA reported that because drug activity in the target area
was not as widespread as the Philadelphia Police Department had initially
reported and that the Department could not commit full-time resources to
the deployment, it ended the deployment to focus MET resources in other
areas.




                                    44 

                                                                       APPENDIX III

            STABILITY OF THE TARGET AREA GRAPHS

Los Angeles Division Office

                             Pasadena, California 

                            Violent Crime Incidents

    180                   171
                                        157
    160
                                              137
    140
    120                         110
    100
     80                                                                 Pre‐Deployment
     60                                                                 Post‐Deployment
     40
                                                              19
     20                                                 8
             1   1
      0
            Homicide      Robbery      Aggravated    Sexual Assault

                                         Assault


  Source: Los Angeles Division Office Six-Month Post-Deployment Report

                 Los Angeles, California (Hollenbeck area) 

                         Violent Crime Incidents 

    400                                 373
    350

    300

                                245

    250                   230
                                              198
    200
                                                                        Pre‐Deployment
    150
                                                                        Post‐Deployment
    100

     50
            12   10                                      4
   10
      0

            Homicide      Robbery      Aggravated    Sexual Assault

                                         Assault


  Source: Los Angeles Division Office Six-Month Post-Deployment Report

                                          45 

Miami Division Office

                              Opa-Locka, Florida 

                            Violent Crime Incidents 

   90

                                        78

   80

                                              71

   70

                         58

   60

   50
                         47


   40
                                                                 Pre‐Deployment
   30
                                                                 Post‐Deployment
   20

                                                        11

   10
                                                        2

           0    0
    0

          Homicide       Robbery      Aggravated     Sexual Assault

                                        Assault


  Source: Miami Division Office Six-Month Post-Deployment Report

                           Fort Lauderdale, Florida 

                           Violent Crime Incidents 

   100
                                       95

    90
                   83            83
    80

    70
                        66
    60

    50

                                                                       Pre‐Deployment

    40

                                                                       Post‐Deployment

    30

    20
                                                 12
    10
     2                                                 5
                1
     0

           Homicide       Robbery      Aggravated    Sexual Assault
                                         Assault

  Source: Miami Division Office Six-Month Post-Deployment Report




                                         46 

San Diego Division Office

                             San Diego, California 

                      Gang-Related Violent Crime Incidents 

    180                                                   165

    160

    140

    120
                                                           109

    100

                                                                                 Pre‐Deployment
     80
                                  58                                             Post‐Deployment
     60
                                        40
     40

     20
        6
    10
      0

                Homicide           Robbery                 Assaults


  Source: San Diego Division Office Six-Month Post-Deployment Report

                           Oceanside, California 

                 And Gang-Related Violent Crime Incidents31

     400                                                   377

     350
                                                                               All Oceanside Pre‐
     300                                                                       Deployment
                                                                 238
     250                                                                       All Oceanside 
     200                                                                       Post‐Deployment

     150                                      118                              Gang‐Related Pre‐
                                                                               Deployment
     100
                                         50                                    Gang‐Related 
      50                                                               16 14
               5 3 0 0     0 3 3 3                  2 6                        Post‐Deployment
           0
               Homicide    Attempted         Robbery         Assaults
                           Homicide

   Source: San Diego Division Office Six-Month Post-Deployment Report


       31
           All pre- and post-deployment results include gang-related crimes. However, the
division reported no pre-deployment attempted homicides for all of Oceanside, but reported
three gang-related attempted homicides. We believe the Division should have reported that
there were three attempted homicides before the deployment for all Oceanside.

                                              47 

Dallas Division Office

                               Fort Worth, Texas
                            Violent Crime Incidents
   1400
                                 1305

                                             1204

   1200


   1000
                  869

    800

                                 660
    600
                                                                 Pre‐Deployment

                                                                         Post‐Deployment

    400


    200

             23   30
                                      29   32

      0

            Homicide      Robbery       Aggravated     Sexual Assault

                                          Assault


  Source: Dallas Division Office Six-Month Post-Deployment Report

Philadelphia Division Office

                          Philadelphia, Pennsylvania
                           Violent Crime Incidents
    200

                                         179

    180

                                 159

    160
                  147

    140
                                        122

    120

    100

                                                                         Pre‐Deployment
     80

                                                                         Post‐Deployment
     60

     40

                                                          19    17

     20
     9
   6

      0

            Homicide      Robbery       Aggravated     Sexual Assault

                                          Assault


   Source: Philadelphia Division Office Six-Month Post-Deployment Report



                                           48 

                                                             APPENDIX IV

                      DURATION OF DEPLOYMENTS
                    MAY 2008 THROUGH JANUARY 2010

Completed Deployments
               Deployment                                    Days     Months
  Division                       Start Date     End Date
                  Location                                  Elapsed   Elapsed
Initiated in FY 2008
Dallas         Fort Worth,          5/8/2008    1/19/2009      251       8.37
               TX
Los Angeles Pasadena, CA            7/8/2008  10/3/2008         85       2.83
Miami          Opa-Locka, FL       5/15/2008 12/31/2008        226       7.53
Newark         Newark, NJ          5/19/2008  1/16/2009        237       7.90
Philadelphia Philadelphia,         7/21/2008  4/21/2009        270       9.00
               PA
San Diego      San Diego, CA       5/11/2008     9/4/2008      113       3.77
San Diego      Oceanside, CA       9/16/2008    2/26/2009      160       5.33
Initiated in FY 2009
Chicago        Englewood, IL      7/31/2009 12/18/2009         138       4.60
Dallas         Greenville, TX     3/30/2009  12/8/2009         248       8.27
Los Angeles Los Angeles,         11/17/2008  7/31/2009         254       8.47
               CA
Miami          Coral Springs,       6/5/2009 10/23/2009        138       4.60
               FL
Miami          Fort                10/9/2008     5/7/2009      208       6.93
               Lauderdale,
               FL
San Diego      San Diego, CA       11/3/2008    9/28/2009      325      10.83
                                                 Average    204.08       6.80
Source: DEA Regional and Local Impact Section




                                         49 

Ongoing Deployments
                      Deployment                                  Days          Months
    Division                                    Start Date
                        Location                                 Elapsed        Elapsed
Initiated in FY 2008
Detroit           Detroit, MI                      6/30/2008           570          19.00
         32
Houston           Houston, TX                      5/28/2008           603          20.10
          33
St. Louis         St. Louis, MO                    5/21/2008           610          20.33
Washington        Washington, DC                   5/11/2008           620          20.67
                                                    Average         600.75          20.03
Initiated in FY 2009
Houston           Montgomery Co., TX            11/21/2008             430          14.33
Newark            Irvington, NJ                   3/1/2009             330          11.00
Philadelphia      Darby Borough, PA              3/31/2009             300          10.00
Phoenix           Casa Grande, AZ                9/15/2009             136           4.53
                                                  Average           299.00           9.97
Initiated in FY 2010
Atlanta           Atlanta, GA                    1/11/2010              20           0.67
Chicago           Chicago Heights, IL            1/21/2010              10           0.33
El Paso           Espanola, NM                   1/14/2010              17           0.57
Los Angeles       Antelope Valley, CA           10/19/2009             102           3.40
Miami             Allapattah, FL                 10/7/2009             114           3.80
San Diego         San Diego, CA                 10/13/2009             108           3.60
                                                  Average            61.83           2.06
Source: DEA Regional and Local Impact Section




       32
           The Houston Division opened two investigative cases during its MET operation and
has submitted Immediate Post-Deployment Reports for one of those cases. One
investigative case remained open as of January 2010.
       33
          The St. Louis Division opened three investigative cases during its MET operation
and has submitted an Immediate Post-Deployment Report for the initial investigative case.
The other two investigative cases remained open as of January 2010.

                                            50 

                                                                                 APPENDIX V

        THE DEA’S RESPONSE TO THE DRAFT AUDIT REPORT
                                                        U. S. Department of Justice
                                                        Drug Enforcement Administration


__________________________________________________________________________
www.dea.gov	                                            Washington, D.C. 20537




MEMORANDUM

TO: 	          Ferris B. Polk
               Regional Audit Manager
               Atlanta Regional Audit Office
               Office of the Inspector General

FROM: 	        Kevin M. Foley
               Acting Deputy Chief Inspector
               Office of Inspections

SUBJECT: 	     DEA's Response to the OIG's Draft Report: Audit of the Drug Enforcement
               Administration's Mobile Enforcement Team Program

     The Drug Enforcement Administration (DEA) has reviewed the Department of Justice
(DOJ), Office of the Inspector General's (OIG's) Draft Audit Report, entitled: Audit of the Drug
Enforcement Administration's Mobile Enforcement Team Program. DEA acknowledges OIG's
efforts in conducting a review of DEA' s coordination with federal, state, and local law enforcement
officials regarding mutual drug enforcement efforts. DEA's Mobile Enforcement Team (MET)
Program is committed to addressing violent drug-related crime and assisting local law enforcement
agencies confront drug trafficking. DEA is also committed to reducing drug-related violence while
disrupting and dismantling drug trafficking organizations, Mexican poly-drug trafficking sources of
supply, and especially the violent Mexican wholesalers who dominate the methamphetamine markets
in the United States.

        DEA appreciates OIG's recognition of the positive impact MET deployments had on citizens
in communities across the nation. OIG's report states that 25% of MET deployments conducted since
2008 targeted methamphetamine drug trafficking organizations (DTOs), and the fourteen METs
operating during the audit period seized over 32,000 grams of methamphetamine. OIG also
acknowledged in the audit report that METs executed 1,570 arrests, seized over 1.6 tons of
dangerous controlled substances, disrupted or dismantled 150 violent DTOs, and removed
approximately 300 weapons from the hands of violent DTO members. OIG further noted that since
2008, MET investigations led to the seizure of U.S. currency, real property, and vehicles totaling
$4,048,037.
                                                 51 

Ferris B. Polk, Regional Audit Manager                                                       Page 2

    DEA appreciates OIG's recognition that MET deployments have been successful in the reduction
of violent crime. Appendix III of the report shows that after a MET deployment was completed,
violent crime was actually reduced in 19 of the 31 crime areas audited.

   OIG documented through its audit that no significant deficiencies were noted in DEA's internal
controls of MET Program operations. OIG also noted that MET six-month post deployment reviews
generally contained positive statements regarding the impact each MET deployment had on targeted
communities.

    DEA remains committed to process improvements and will work to implement the
recommendations made by the OIG. Prior to addressing the recommendations, the DEA provides
the following clarification of the report's analysis of the MET program's intentions and
deployments.

MET's Poly-Drug and Methamphetamine Trafficking Focus

     The OIG report accurately summarizes the on-again, off-again funding history of the MET
Program and the evolving focus of the program from 2006 through 2010. Over that time period, the
MET Program gradually shifted from a predominant focus on methamphetamine to a focus on gang
and drug-related violent crime, which often includes methamphetamine trafficking. Most drug
traffickers operate as poly-drug organizations and violence is a hallmark of their activity.
Accordingly, whenever a MET deploys to address a violent drug trafficking organization it is likely
that methamphetamine will be among the drugs involved.

    As DEA increased its focus on gang and drug related violent crime, we were careful to inform
the Congress of this shift through frequent, clear statements in our Congressional Budgets, our
Congressional testimony and our responses to the questions for the record which followed our
appropriations hearings. The Congress responded accordingly by modifying its report language,
shifting from a strict directive that the METs should focus on methamphetamine (2006) to more
inclusive statements that the activities of the METs should "include a focus on meth" (2008, 2009
and 2010; emphasis added).

    In every year since the program was reestablished in 2008, the activities of the METs have
included a focus on methamphetamine. During the time period reviewed by the OIG (FYs 2008 -
2010), methamphetamine was the primary focus of 26% of the MET deployments and 48% of all
deployments resulted in seizures or purchases of prosecutable amounts of methamphetamine. In
fact, of all the drugs seized by the METs during the audit period, methamphetamine seizures were
third only behind marijuana and cocaine. Clearly, this demonstrates that methamphetamine has
continued to be a significant focus of the MET Program and that the MET deployments are
consistent with the direction we received from Congress.

    It is, therefore, unclear why the OIG report appears to suggest that DEA has deviated from
Congressional intent because we have devoted a significant portion of the MET resources to
combating drug-related violent crime. The OIG report itself acknowledges that the Congressional
language "does not preclude the DEA from using METs to address other drug issues" (page v).
DEA believes a balanced presentation of the history of the program would simply explain that the

                                                52 

Ferris B. Polk, Regional Audit Manager                                                          Page 3

focus of the METs has shifted over time, from one that was primarily focused on methamphetamine
to one that is primarily focused on violent drug traffickers; that DEA has been clear in explaining that
shift to Congress; and that Congress has responded by giving DEA greater latitude in deciding how
the METs should be deployed.

Selection of DEA Division MET Sites

    The OIG report states that the METs were not mobile because DEA chose to establish more
METs in metropolitan areas; therefore, rural law enforcement agencies did not have the benefit of
using MET resources to address either methamphetamine or violent gang problems within their
jurisdictions. In 2008, during DEA's selection of division MET sites, DEA Headquarters sent
requests to each Special Agent in Charge (SAC) of DEA's 21 respective domestic field divisions to
gauge the need for a MET. In response to the requests, each division outlined the current level of
violence, identified drug-related threat(s) in their respective regions, and addressed the prevalence of
violent Mexican poly-DTOs in those regions, as well as the function of the sources of supply for
criminal street and prison gangs.

    DEA Headquarters collected information regarding elevated levels of violence in those regions
and noted increases in serious crimes reported in the Uniform Crime Index. Headquarters acquired
information on how the MET Program would be utilized in each of the regions and whether it would
be feasible for METs to focus on higher-level Mexican poly-drug sources of supply, including
methamphetamine trafficking organizations. DEA reinstated METs in ten of its field divisions after
evaluating SAC responses and considering pertinent issues affecting field divisions such as:
proximity to the Southwest Border, presence of agency gang resources, and manpower. All ten
divisions where METs were reinstated reported high levels of gang activity and violent DTOs. In
FY 2008 when METs were reinstated, the METs were advised that DEA Headquarters could not
provide temporary duty (TDY) funding to allow deployment travel. This lack of funding made it
difficult to provide assistance to local agencies which were outside the 50-mile radius of the field
division offices.

    However in FY 2009 when funding for deployment travel became available, MET deployments
outside of the field division office area were considered. In fact two of the four newly established
METs opted to deploy outside the area of their respective division office.

    DEA provides the following responses to the OIG's recommendations:

    Recommendation 1: Consider whether more of its MET resources should be used to
    combat methamphetamine trafficking, consider whether METs should be more mobile,
    update the MET Program Handbook to reflect the current focus of the program, and
    provide relevant guidance to its field divisions.
    DEA concurs with this recommendation. DEA will continue to focus MET Program resources
    on combating gangs, violent DTOs, and methamphetamine trafficking. DEA will keep the U.S.
    Congress abreast of DEA's continued intent and overall direction of the program, and will
    continue the MET focus until otherwise directed by Congress.

    DEA also agrees that METs should be mobile and has begun proactive steps to reiterate and
                                                  53 

Ferris B. Polk, Regional Audit Manager                                                         Page 4

   ensure that the MET Program's overall focus is maintained. In 2009, two of the four newly
   established METs deployed outside of a 50-mile radius of their division office. Additionally in
   FY 2010, deployments in areas outside the division office increased to five MET deployments
   demonstrating the goal to increase the mobility of the MET.

   On September 28, 2010, the Operations Division held a MET conference for all MET Group
   Supervisors and back-up supervisors to discuss the overall function of the program and
   reemphasize guidelines, policies, and procedures of the program. This conference was beneficial
   to supervisors, especially new supervisors to the MET Program. The supervisors were directed
   to continue METs' focus on gangs, violent DTOs, and methamphetamine trafficking and
   manufacturing when feasible. They were also encouraged to deploy outside a 50-mile radius of a
   DEA division office whenever possible. The Operations Division further informed the MET
   Group Supervisors that the MET Handbook and all related guidelines, policies, and procedures
   are in process of being updated to improve the program. It is anticipated that the revised
   handbook will be finalized within FY 2011.

   Recommendation 2: Establish a standardized process for reviewing and selecting from
   competing requests for MET assistance

   DEA concurs with this recommendation. DEA is in the process of developing uniform guidance
   to all divisions for use in selecting MET deployment locations. It is anticipated that the guidance
   will be finalized within FY 2011.

   The SACs of all METs are to consider the following items in assessing the priority given to a
   deployment request:

   1. Uniform Crime Report Part 1 crime statistics for the specific targeted area of the proposed
   deployment
   2. Primary drug distributed by the targeted groups, and links to Mexican poly-drug trafficking
   organizations, recognizing the priority of methamphetamine trafficking organizations when
   feasible
   3. Identification of the targeted organization and its members
   4. Level of violence attributed to the targeted organization
   5. Need of the requesting agency (financial, manpower, technical, etc.)
   6. Need of the community requesting a deployment
   7. Level and coordination of prosecution at both the state and federal level
   8. Projected impact of the deployment on the community
   9. The availability and potential utilization of cooperating sources

   Recommendation 3: Ensure that divisions conduct adequate outreach activities to inform
   local law enforcement agencies about the availability of MET resources

   DEA concurs with this recommendation. DEA recognizes each division is unique and not all
   law enforcement agencies within their area of responsibility (AOR) want or need MET
   assistance. However, in an effort to include all law enforcement agencies, DEA is in the process
   of developing uniform guidance to all divisions for use in conducting extensive outreach to
   include all state and local law enforcement agencies within the division's AOR. The goal of the
                                                 54 

Ferris B. Polk, Regional Audit Manager                                                        Page 5

   outreach effort is to give all state and local law enforcement agencies an equal opportunity to
   request and receive MET assistance. Outreach efforts will be documented and retained by the
   field by fiscal year. It is anticipated that the guidance will be finalized within FY 2011.

   Recommendation 4: Ensure that Six-Month Post-Deployment Reports include the outcome
   of each arrest, including dismissals and reasons for the dismissals, and use that information
   to improve MET operations

   DEA concurs with this recommendation. DEA is in the process of developing uniform guidance
   to all divisions for reporting and submission of the six-month Post-Deployment Report (PDR).
   A new section will be added to the six-month PDR to include deployment arrest outcomes and
   dismissals. A DEA-210 form, Defendant Disposition Report, will be submitted and used for
   reporting purposes for all adjudications and/or dismissals that occur after the six-month PDR is
   submitted. It is anticipated that the guidance will be finalized within FY 2011.

   Recommendation 5: Define a timeframe for submitting completed Six-Month Post
   Deployment Reports and ensure those reports are completed and submitted timely for each
   defined target area

   DEA concurs with this recommendation. DEA is in the process of developing uniform guidance
   to all METs for the reporting period of the six-month PDR. Clarifications of when the reporting
   period starts and ends will be included in the guidance. The guidance will also provide dates of
   when it is to be submitted to DEA Headquarters. Guidance for extensions for reporting will also
   be provided. It is anticipated that the guidance will be finalized within FY 2011.

   Recommendation 6: Ensure that pre-and post-deployment crime statistics used to measure
   changes in crime rates are for the target area of the MET operation

   DEA concurs with this recommendation. DEA is in the process of developing uniform guidance
   to all METs that when possible, the actual area targeted by the MET is narrowed as much as
   possible to extract crime statistics from that specific area. The METs will review when available
   pre and post deployment statistics for the same targeted area to ensure that the statistics are
   consistent. This practice will result in more accurate reporting of the impact MET deployments
   actually had on targeted areas. It is anticipated that the guidance will be finalized within FY
   2011.

    Documentation detailing DEA's efforts to implement each of the recommendations noted in this
report will be provided to the OIG on a quarterly basis, until all corrective actions have been
completed. If you have any questions or concerns regarding DEA's response to the OIG Audit
Report recommendations, please contact the Audit Liaison Team at (202) 307-8200.




                                                 55 

                                                           APPENDIX VI

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT



      The OIG provided a draft of this audit report to the DEA. The DEA’s
response is incorporated in Appendix V of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Analysis of the DEA’s Response

       In response to our audit report, the DEA concurred with our
recommendations and discussed the actions it will implement in response to
our findings. However, the DEA’s response disputed several aspects of our
findings.

       The DEA response stated that the audit report “appears to suggest
that DEA deviated from Congressional intent” because it devoted a
significant portion of “MET resources to combating drug-related violent
crime,” and the response questioned whether the report presents a balanced
view of the history of the focus of the MET program. The response also
stated that the DEA has been clear in explaining to Congress that the focus
of the program has shifted and “that Congress has responded by giving DEA
greater latitude in deciding how the [MET program] should be deployed.”
We provide the following reply to these statements before discussing the
DEA’s specific responses to each of our recommendations and the actions
necessary to close those recommendations.

      The report clearly explains that in FY 2008 Congress wanted MET
operations to focus on methamphetamine and other dangerous drugs, and in
FYs 2009 and 2010 Congress wanted MET operations to include a focus on
methamphetamine enforcement. As explained in the report and in the DEA’s
response, congressional language does not preclude the DEA from using
METs to address other drug issues. However, because Congress emphasized
methamphetamine, we recommended that the DEA consider whether it
should devote more MET resources to the methamphetamine problem.

      On the second page of its response to our report, the DEA stated that
the OIG report accurately summarizes the funding history and the evolving

                                     56 

focus of the MET program from 2006 through 2010. The DEA response
states, however, that “a balanced presentation of the history of the program
would simply explain that the focus of the METs has shifted over time from
one that was primarily focused on methamphetamine to one that is primarily
focused on violent drug traffickers; that DEA has been clear in explaining
that shift to Congress; and that Congress has responded by giving DEA
greater latitude in deciding how the METs should be deployed.”

       Our report notes the shift in focus of the MET program from
methamphetamine to violent drug trafficking, and concludes that DEA could
have been clearer in reporting this shift in focus to Congress. For example,
at a July 2009 congressional committee hearing a DEA Assistant
Administrator testified that the DEA established METs at four DEA divisions
in FY 2009 to address methamphetamine trafficking. However, our review
found that only one operation of the five enforcement operations conducted
by the METs referenced in the congressional testimony had
methamphetamine as its primary focus. We also determined that from the
time the MET program restarted in April 2008 through January 2010,
7 (26 percent) of 27 initiated MET deployments had methamphetamine
trafficking as the primary focus of the deployment. Given that Congress has
consistently indicated that the MET program should include a focus on
methamphetamine enforcement operations, we recommended that the DEA
consider whether to use a greater percentage of its MET resources to combat
methamphetamine trafficking.

     In addition, based on the decline in methamphetamine focused MET
deployments, the report recommends that the DEA update the MET program
handbook to reflect the current focus of the program.

      The DEA’s response also provided detail on the process used to select
deployment locations and implies disagreement with our conclusion that the
METs – Mobile Enforcement Teams – were not mobile. The DEA states that
when METs were reinstated in FY 2008, lack of temporary duty funding to
allow deployment travel made it difficult to provide assistance to local
agencies which were outside the 50-mile radius of the field division offices.
The DEA states that in FY 2009, when funding for deployment travel became
available, MET deployments outside of the field division office area were
considered and that two of the four newly established METs opted to deploy
outside the area of their respective division office.

     Our report did find that, when the MET program restarted in FY 2008
without authorizing travel funds, decisions about where to deploy METs were
based on proximity to the division office and, as a result, METs were
                                     57 

essentially not mobile. We also found for FYs 2009 and 2010, the DEA
authorized the use of MET funds for travel expenses. However, we found
that despite the authorization of travel funds for those 2 years, only 4 of
16 deployments were more than 50 miles from the division office. In
addition, none of those four deployments were to a rural area where
methamphetamine was the focus of the deployment. We recommended that
the DEA consider whether METs should be more mobile. The DEA’s response
to Recommendation 1 discusses its planned efforts to encourage
deployments away from the division offices.

Summary of Actions Necessary to Close the Report

  1. Resolved.	 The DEA concurred with our recommendation to consider
     whether more MET resources should be used to combat
     methamphetamine trafficking, consider whether METs should be more
     mobile, update the MET Program Handbook to reflect the current focus
     of the program, and provide relevant guidance to its field divisions.
     The DEA stated in its response that it will continue to focus MET
     Program resources on combating gangs, violent drug trafficking
     organizations, and methamphetamine trafficking; as well as keep
     Congress abreast of DEA’s continued intent and overall direction of the
     program. The DEA also stated that it will continue the MET focus until
     otherwise directed by Congress. Further, the DEA stated that METs
     should be mobile and has begun taking proactive steps to increase its
     outreach efforts to give state and local law enforcement agencies an
     equal opportunity to request and receive MET assistance.

     This recommendation can be closed when we receive documentation
     showing the DEA: (1) considered whether more MET resources should
     be devoted to methamphetamine trafficking, (2) updated the MET
     Program Handbook to reflect the current focus of the MET program,
     (3) provided relevant updated MET guidance to field divisions,
     (4) issued guidance on conducting and documenting MET outreach
     efforts, and (5) increased MET outreach activities.

  2. Resolved.	 The DEA concurred with our recommendation to establish
     a standardized process for reviewing and selecting from competing
     requests for MET assistance. The DEA stated in its response that it
     was in the process of developing uniform guidance for all divisions to
     use in selecting MET deployment locations. The DEA expects to
     finalize this guidance during FY 2011.



                                    58 

   This recommendation can be closed when we receive the DEA’s 

   standardized process for reviewing and selecting from competing 

   requests for MET assistance. 


3. Resolved.	 The DEA concurred with our recommendation to ensure
   that divisions conduct adequate outreach activities to inform local law
   enforcement agencies about the availability of MET resources. The
   DEA stated in its response that it was in the process of developing
   uniform guidance for all divisions to use in conducting extensive
   outreach to include all state and local law enforcement agencies within
   the divisions’ area of responsibility. The DEA expects to finalize this
   guidance during FY 2011.

   This recommendation can be closed when we receive documentation
   showing that the DEA is ensuring that its field divisions conduct
   adequate MET outreach activities.

4. Resolved. 	The DEA concurred with our recommendation to ensure
   that its MET Program’s Six-Month Post-Deployment Reports include the
   outcome of each arrest, including dismissals and reasons for the
   dismissals, and uses that information to improve MET operations. The
   DEA stated in its response that it was in the process of developing
   uniform guidance for all divisions to use in preparing and submitting
   the Six-Month Post-Deployment Reports. The DEA’s response stated
   that the new guidance, which it expects to finalize during FY 2011, will
   include a section on arrest outcomes and dismissals.

   This recommendation can be closed when we receive documentation
   showing the DEA has implemented procedures to ensure the Six-
   Month Post-Deployment Reports include the outcome of each arrest,
   including dismissals and reasons for the dismissals, and that the DEA
   uses that information to improve MET operations.

5. Resolved. 	The DEA concurred with our recommendation to define a
   timeframe for submitting completed Six-Month Post-Deployment
   Reports and ensure those reports for each defined target area are
   completed and submitted timely. The DEA stated in its response that
   the uniform guidance it is developing will include clarification of the
   reporting period for Six-Month Post-Deployment Reports, as well as
   deadlines and instruction for requesting an extension for submitting
   these reports. Again, the DEA expects to finalize this guidance during
   FY 2011.

                                  59 

  This recommendation can be closed when we receive documentation
  showing the DEA defined a timeframe for submitting completed
  Six-Month Post-Deployment Reports and implemented procedures to
  ensure that the reports for each defined target area are completed and
  submitted timely.

6. Resolved. 	The DEA concurred with our recommendation to ensure
   pre- and post-deployment crime statistics used to measure changes in
   crime rates are for the target area of the MET operation. The DEA
   stated in its response that it is in the process of developing uniform
   guidance that METs should ensure that pre- and post-deployment
   crime statistics for a MET deployment match the target area as closely
   as possible. The DEA expects to finalize this guidance during FY 2011.

  This recommendation can be closed when we receive documentation
  showing the DEA implemented guidance to help ensure that METs
  obtain pre- and post-deployment crime statistics for an area that
  matches the target area as closely as possible.




                                  60 

